<html>
<title> - PROSPECTS FOR UNFREEZING MOLDOVA'S FROZEN CONFLICT IN TRANSNISTRIA</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


112th Congress }                            Printed for the use of the                       
                        
 1st Session   }     Commission on Security and Cooperation in Europe
                                             
======================================================================
	         PROSPECTS FOR UNFREEZING 
	        MOLDOVA'S FROZEN CONFLICT 
	             IN TRANSNISTRIA


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     JUNE 14, 2011


                    Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                    Washington: 2018



          Commission on Security and Cooperation in Europ
                  234 Ford House Office Building
                      Washington, DC 20515
                          202-225-1901
                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eafaeaecc9e4e8e0e5a7e1e6fcfaeca7eee6ff">[email&#160;protected]</a>
                      http://www.csce.gov
                       @HelsinkiComm
                       
                       
                       
                 Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	BENJAMIN L. CARDIN. Maryland
 Chairman				 Co-Chairman
Joseph R. PITTS, Pennsylvania	        SHELDON WHITEHOUSE, Rhode Island                                     
ROBERT B. ADERHOLT, Alabama             TOM UDALL, New Mexico
PHIL GINGREY, Georgia			JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas		RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida		ROGER F. WICKER, Mississippi
ALAN GRAYSON, Florida			SAXBY CHAMBLISS, Georgia
LOUISE McINTOSH SLAUGHTER, 	        KELLY AYOTTE, New Hampshire
 NEW YORK
MIKE McINTYRE, North Carolina
STEVE COHEN, Tennessee

               Executive Branch Commissioners
               
               
                    MICHAEL H. POSNER, DEPARTMENT OF STATE
                   MICHAEL C. CAMUNEZ,DEPARTMENT OF COMMERCE
                  ALEXANDER VERSHBOW, DEPARTMENT OF DEFENSE
                            
                            
                                 [II]
                                 
                                 
ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE 


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.



ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

                                 [III]



                        PROSPECTS FOR UNFREEZING

                        MOLDOVA'S FROZEN CONFLICT

                             IN TRANSNISTRIA


                              June 4, 2011


                                                                  Page
                                  
                                  
                              COMMISSIONER

    Hon. Phil Gingrey, Commissioner, Commission on Security and 
Cooperation in Europe                                                  5

                              PARTICIPANTS

    Mark Milosch, Chief of Staff, Commission on Security and 
Cooperation in Europe                                                   1

    Winsome Packer, Policy Advisor on Political-Military Issues, 
Commission on Security and Cooperation in Europe                        2

    Kyle Parker, Policy Advisor, Commission on Security and Cooperation 
in Europe                                                               20

                               WITNESSES

    Igor Munteanu, Ambassador to the United States, Republic of Moldova  2
    Vlad Spanu, President, Moldova Foundation                            5
    Vladimir Socor, Senior Fellow, Jamestown Foundation                  8
    Lyndon K. Allin, 2008-2009 IREX Policy Specialist, U.S. Embassy in 
     Chisinau                                                           11

                               APPENDICES

    Prepared statement of Hon. Christopher H. Smith                     27
    Prepared statement of Hon. Phil Gingrey                             29
    Prepared statement of Amb. Igor Munteanu                            30
    Prepared statement of Vlad Spanu                                    34
    Prepared statement of Lyndon K. Allin                               39

                        MATERIAL FOR THE RECORD

    Prepared statement of Matthew Rojansky, Deputy Director, Russia and 
Eurasia Program, Carnegie Endowment for International Peace             49

                                    [IV]





 
                          PROSPECTS FOR UNFREEZING
                          MOLDOVA'S FROZEN CONFLICT
                               IN TRANSNISTRIA
                               
                               
                                   ----------                              

                                  JUNE 4, 2011




    The briefing was held at 10 a.m. in room 2203, Rayburn House Office 
Building, Washington, DC, Hon. Phil Gingrey, Commission on Security and 
Cooperation in Europe, moderating.
    Commission staff present: Mark Milosch, Chief of Staff, Commission 
on Security and Cooperation in Europe; and Winsome Packer, Policy 
Advisor on Political-Military Issues, Commission on Security and 
Cooperation in Europe.
    Panelists present: Igor Munteanu, Ambassador to the United States, 
Republic of Moldova; Vladimir Socor, Senior Fellow, Jamestown 
Foundation; Vlad Spanu, President, Moldova Foundation; and Lyndon K. 
Allin, 2008-2009 IREX Policy Specialist, U.S. Embassy in Chisinau.
    Mr. Milosch. Good morning. My name is Mark Milosch. I'm the staff 
director at the Helsinki Commission. And on behalf of Chairman Smith, 
I'd like to welcome Ambassador Munteanu, our other panelists and 
everyone joining us today, including those joining us on video.
    This morning, we will examine the human cost of Moldova's frozen 
conflict with its breakaway region of Transnistria and the prospects 
for resolving this 20-year-old conflict. We say it's a frozen conflict 
because it was settled not by a peace agreement, but simply by agreeing 
to freeze each side's positions.
    In Moldova, this happened immediately after the dissolution of the 
Soviet Union, in 1992, when armed conflict between Moldova and Russian-
backed separatist forces was frozen by mutual consent. The Moldovan 
Government had no reasonable alternative. Yet, it can hardly give away 
its territory. In the ensuing 18 years, almost nothing has been 
resolved.
    The Moldovan Government has not managed to reassert control over 
Transnistria, nor has Transnistria won recognition, even from Russia, 
as an independent state. As is generally the case in frozen conflicts, 
we're also dealing with grave human rights and humanitarian concerns. 
Let me quote briefly from the 2010 country reports on human rights 
practices for Moldova.
    Quote: ``In Transnistria, authorities restricted the ability of 
residents to freely change their government and interfered with the 
ability of Moldovan citizens living in Transnistria to vote in Moldovan 
elections. Torture, arbitrary arrests and unlawful detentions were 
regularly reported. Transnistrian authorities continued to harass 
independent media and opposition lawmakers, restrict freedom of 
association, movement and religion, and to discriminate against 
Romanian speakers.''
    Today, we'll examine two general questions. First, given the 
frozenness of the situation, how can we address the human rights and 
humanitarian concerns in Transnistria? Second, and more optimistically, 
can the conflict be unfrozen? What should our policy be to promote the 
reintegration of Transnistria into Moldovan Government? We are 
fortunate to have an impressive panel of experts, and I will now turn 
the microphone over to Winsome Packer, staff advisor at the commission.
    Ms. Packer. Thank you, Mark. I also would like to welcome our 
panelists and I'd like to also acknowledge my colleague, Kyle Parker, 
who has worked with me to put this briefing together. The panelists' 
full bios are available outside the hearing so I won't read them. We 
will hear first from Ambassador Munteanu, Moldova's representative to 
the United States, who also has a distinguished academic and think tank 
career.
    Ambassador Munteanu will be followed by Mr. Vladimir Socor, a 
senior fellow at the Jamestown Foundation and former analyst with Radio 
Free Europe/Radio Liberty. Next, we will hear from Mr. Vlad Spanu, 
president of the Moldova Foundation and former senior diplomat of 
Moldova. And then we will hear from Mr. Lyndon Allin, a corporate 
lawyer and policy expert who has done extensive work on Transnistria.
    We also have a written statement from Matthew Rojansky, deputy 
director of the Russia and Eurasia program at the Carnegie Endowment 
for International Peace, which will be included in the briefing record. 
Following the presentation of the panelists, we'll accommodate 
questions from the audience at the microphone at the far right of the 
podium. Thanks. Ambassador?
    Amb. Munteanu. Yes, good morning, everyone. It's a privilege for me 
to be here and speak in front of such a distinguished audience. Allow 
me to state from the outset that the origins of this conflict--
Transnistrian conflict, which is called frozen--were not ethnic, not 
racial, nor religious.
    With its mixed population of religion, the region is not a state or 
a nation, being artificially separated from the Moldova proper 
following the military conflict in 1992. The trigger for secession was 
opposition, by 1991, 1992, of the Soviets to understand and acknowledge 
the independent statehood of Moldova. And that was the major objective 
pursued by the largest share of the population of Moldova.
    Military hostilities started in March, 1992, and lasted until July 
21, 1992, when a ceasefire agreement was signed by the presidents of 
Russia and the Republic of Moldova introducing peacekeepers in the 
region with the aim to stop military hostilities and disengage hostile 
sites.
    An OSCE mission has been established in Moldova after 1993 but it 
has been obstructed to perform its main tasks under constant 
objections, including from the separatist regime, as regards their 
requests to do military inspections, alleged arms production or 
accumulation of military illegal forces in the so-called 
demilitarization zone.
    Unconstrained by international law, the separatist regime in 
Transnistria turned into a safe haven for criminal activities, 
smuggling and constant violations of the human rights, which, performed 
systematically, imposed a totalitarian control over the population of 
the region, business and mass media. Movement of the population is 
hindered by multiple checkpoints.
    People are put in jails and tortured physically or morally if they 
show dissent towards the official propaganda endorsed by the so-called 
Tiraspol authorities. Of special target are people which oppose the 
regime, like the villages of the left bank, which remained loyal to the 
Moldovan statehood and Moldovan jurisdiction after the conflict--the 
military conflict--ended.
    And the second were the Moldovan schools, whose teachers are 
harassed, whose parents are intimidated and whose licensing is 
suspended by the regime. Just to mention that in spite of the OSCE 
mission actions, situation of the Moldovan schools remains unclear 
until today, and that was the main reason why the European Union 
introduced a visa ban for the leaders of the separatist regimes after 
2004, after the shutdown of some of these schools.
    Of special concern for us in Moldova is the situation of the 
political prisoners arrested by the local KGB, which is an instrument 
of power for the administration in Tiraspol. In 2002, the European 
human rights court found Russia guilty of actions or inactions that led 
to the arrest of Ilascu group and imposed penalties to be paid, calling 
Tiraspol to release people that were jailed for 12 years.
    In 2010, Ernest Vardanyan, a journalist from Moldova, was arrested 
under accusation of espionage for Moldova. He was jailed for more than 
one year. Other cases of illegal arrests used by the authorities of 
this region to claim, afterwards, payments for the liberations have 
been reported almost weekly by the watchdogs of the region.
    In that same year of 2010, another Moldovan citizen, Ilya Kazak, 
was arrested by the region's KGB and sentenced for 15 years of prison 
under accusation, again, of spying for Moldova. In April, 2011, 
Vardanyan was released, but several other people still remain in jail 
for alleged accusations, which, in some cases, seem to be an ordinary 
attempt to extort money from their families. And this is documented by 
Amnesty International, by Helsinki Group, by Promolex, local watchdogs.
    We want this situation to be changed, and by creating all necessary 
conditions to reintegrate the region of Transnistria into the Moldovan 
State within its internationally recognized borders as of January 1st, 
1990. We call the settlement of the Transnistrian completely 
exclusively by peaceful means through a transparent negotiations 
process in the framework of the existing five-plus-two format.
    Today, we have a favorable international situation defined by an 
increased attention to a viable settlement from Moldova's major 
partners: European Union, United States, Russia, Ukraine. As well, 
we've noticed a gradual intensification of political consultations in 
OSCE. In 2010, there were five unofficial meetings in the five-plus-two 
format; in 2011, there have been two meetings--first in February and 
second in April--testing the ground for official launch of talks, 
although the visions remain quite far distant.
    We hope that the meeting scheduled for June 21st in Moscow will 
mark the resumption of the official five-plus-two format of 
negotiations with all five actors aiming to restore trust and respect 
international law. Once the official negotiations are relaunched, we 
will be able to see a clearer perspective in the settlement process and 
move towards identification of the status of the Transnistrian region.
    Moldova's position is well-known. Transnistria should be an 
integral part of the Moldovan Republic or the Republic of Moldova. 
Within its sovereign constitutional space, it is supposed to enjoy a 
large degree of administrative, financial and political autonomy. 
Respect of democratic norms, values and practices should prevail, while 
national legislation should be applied in full throughout the territory 
of the country.
    Resumption of negotiations shall not be done for the sake of 
resumption but on clear ideas related to the full and comprehensive 
settlement of this conflict, appropriate to consolidate a viable, 
democratic, independent and sovereign state of Moldova. We see this as 
a matter of exclusive internal power-sharing mechanisms and the 
emergence of territorial autonomy in Transnistria, similar to the 
Gagauz autonomy, which has been established in 1994, in December, in 
Moldova.
    It is by default that a special statehood will provide fundamental 
civil and political rights to the population without any discrimination 
and the basis of the international and the European conventions. In 
fact, National Parliament of Moldova has adopted already, in 2005, a 
law on the principles of the conflict settlement in line with the 
international and European rules protecting the rights of local and 
regional governments.
    And we want this sovereign law to be respected in full and 
acknowledged by the mediating parties. It is my pleasure to commend, in 
the same regard, the findings and conclusions of the Senate Committee 
on Foreign Relations report distributed on February 8th, 2011, under 
the name ``Will Russia End Eastern Europe's Last Frozen Conflict?''
    Wrapping up my references to the basic principles of the 
Transnistrian conflict settlement, I would like to quote Vice President 
Joe Biden, who put them in a very eloquent way during his March visit 
to Chisinau. He said, ``the only solution that can be accepted is the 
solution which would ensure the respect of sovereignty and territorial 
integrity of the Republic of Moldova within its borders recognized by 
the international community. The future of Transnistria is within the 
Republic of Moldova.''
    Dear colleagues, today, Moldova is a democratic state, which is 
proudly advancing towards an (accession?) agreement with the European 
Union. It has ratified and is effectively implementing the European 
Convention on Human Rights. It is signatory of the most important 
international and the European human rights conventions. As a member of 
the Council of Europe, it is regularly monitored by specialized 
committees, which constantly assess the progress towards the rule of 
law.
    Following the installation EUBAM in 2006--the border-monitoring 
mission of the European Union--over 620 Transnistrian firms were 
registered by Moldovan law, which allowed them, now, to use their 
access to the European common market with no taxes paid for their 
exports. Population of the region receives all social benefits from the 
national social budget. Hundreds of fellowships are provided free of 
charge to the region's youth annually.
    Over 350,000 of its half-a-million population holds Moldovan 
citizenship, and many of them are actively using their rights and 
freedoms protected by the Moldovan constitution and support the 
reintegration process of the region against the obstructions made by 
the separatist regime. Nevertheless, conservation of the Russian troops 
and ammunitions and the territory of the Republic of Moldova is a 
flagrant violation of our constitution, a violation of international 
obligations and a challenge to the legitimated authorities of the 
national government.
    The political solution to the conflict should be consistent with 
the strategic vector of the European Union integration for Moldova. A 
responsible though more active participation of the United States and 
the European Union in the conflict settlement is, of course, crucial, 
as it brings the impetus and the resources necessary in reaching the 
positive result of this process.
    Why should the Western community be interested in solving the 
problem, and how this conflict can affect the West? The region is 
simply 60 miles away from the border of NATO and the European Union. 
Therefore, this conflict is directly affecting the European Union 
security areas. And we are talking here about 60 miles--something 
comparable to the distance from here, where we are now, to 
Fredericksburg, Virginia--one-hour drive.
    So the danger generated by the existence of a region of instability 
at the immediate proximity of the Euro-Atlantic community is obvious 
and it is also obvious that the price of solving the conflict is far 
lower than the price of instability and the risks of escalation. A 
civilian mission under international mandate would be of great value to 
the viable conflict settlement by taking stock of the ammunitions and 
troops concentrated in the security zone between the two banks of the 
Nistru River.
    Today, there is not enough information about the heavy deployment 
of military equipment and arsenals. At the same time, efforts to change 
the existing so-called peacekeeping forces with the international 
mission under the mandate of international organizations should be 
intensified. Constant violations of the human rights must be stopped 
and innocent people ought to be released from the jails of the regime.
    Moldovan authorities call international organizations to intensify 
their watching and monitoring activities on the region's situation and 
intensify collective efforts to stop the existing abuses, ensuring 
basic rights to be protected in a region that is not covered by 
international law today.
    We call towards all states and actors that are involved in the 
five-plus-two format of negotiations to abstain from any sort of 
actions that directly or indirectly obstruct restoration of the 
Moldovan sovereignty over the region, focus attention to the 3D 
commandments that are indispensable for a fair settlement: 
democratization, demilitarization and decriminalization of the region. 
I think I will stop here to pass the floor to the next speakers and to 
leave more room for discussion during the session of questions and 
answers. Thank you very much.
    Mr. Gingrey. Ambassador, thank you very much for your testimony. 
We'll now hear from Vlad Spanu, president of the Moldova Foundation, a 
former senior diplomat of Moldova. And I'll turn it over to Mr. Spanu.
    Mr. Spanu. Thank you, Mr. Chairman. I would like to express 
gratitude to the U.S. Helsinki Commission members and staff for 
including in its agenda this important topic today. And a special 
thanks to Winsome Packer, Kyle Parker and Mark Milosch, who made this 
briefing today and other briefings and hearings for Moldova, in the 
past, possible.
    I express this gratitude on behalf of those who suffer the most 
because of this externally imposed conflict--that is, the residents of 
the towns and villages east of the Nistru River in Moldova. Although 
they constitute the majority, those people are not represented at the 
negotiation tables.
    Their voice is not heard, not only in Moscow, Brussels, Vienna or 
Washington, but even in their own capital, Chisinau. They are not on 
the front pages. They are not interviewed by public or private TV 
stations in the Republic of Moldova, or elsewhere to say their painful 
story of living in ghetto-type settings where residents have no rights.
    What is happening today in the eastern part of Moldova is nothing 
else than a continuation of the Soviet Union geopolitical policies now, 
after 1991, embraced by the Russian Federation. To understand better 
the conflict, one should look back in history. There are several events 
that have to be remembered when tackling the Transnistrian conflict.
    First, the 1792 Treaty of Jassy, signed between the Ottoman Empire 
and the Russian Empire, after which Russia, for the first time, reached 
the Nistru border and became the neighbor of the principality of 
Moldova.
    Second is the 1812 Treaty of Bucharest between the same two 
actors--resulted in the partition of the principality of Moldova, the 
eastern half of which was incorporated into Russia as Bessarabia until 
1917 Bolshevik revolution.
    Third, the creation, in 1924, within the Soviet Ukraine, of the 
Moldovan autonomous Soviet republic on the eastern bank of Nistru, 
where the majority of population constituted ethnic Romanians, as 
bridge- head to once again successfully occupy Bessarabia in 1940 by 
the Red Army as an outcome of the Hitler-Stalin Pact of 1939.
    Finally, in 1990 and 1991, the same territory east of Nistru, with 
its main city, Tiraspol, was once again used by the Kremlin's 
masterminds as an outpost to keep the Republic of Moldova--back then 
Soviet Moldavia--from getting away from the USSR control, and today, 
from Russia's control.
    Today, Russia's minimum objective in Moldova is to create a second 
Kaliningrad in the south to keep the Republic of Moldova and Ukraine in 
check. Its maximum objective is to get full control of the Republic of 
Moldova through federalization schemes imposed on Moldova where 
Transnistria is to play the main role of holding veto power on the 
future of Moldova, its internal and external policies.
    As a bonus, by reaching these objectives, Russia will be able to 
encircle Ukraine, closing its only large window to the West, thus 
keeping Ukraine into its orbit. Focusing entirely on fruitless official 
negotiations to solve the conflict between Russia and Moldova is a big 
mistake. During 19 years of bilateral negotiation and multilateral 
negotiations, no result was achieved in ending the conflict.
    Russian troops are still stationed in Moldova and Russia's support 
for separatist movement continues while local residents of this region 
suffer. These residents, who are nothing less than geopolitical 
hostages, are not allowed to have access to basic freedoms, including 
freedom of expression, of education in their native language and of 
assembly, among others.
    Education in the Romanian language is viewed by those in charge of 
this separatist regime as their main threat. This is why, as soon as 
the legislative body in Chisinau, still within the Soviet Union back in 
1989 adopted the language law that established the return of the Roman 
script to the republic's official language, the Soviet authorities in 
Moscow triggered the separatist movement in Transnistria. The alphabet 
issue became central to the secessionist movement and it developed into 
a school war against educational institutions that opted for Latin 
characters.
    As a result of discrimination policies in the field of education, 
the majority of the population in Transnistria, Romanian ethnics, has 
only 88 schools that are authorized to teach in the native language, 
but only eight are permitted to use the Latin alphabet. The several 
Romanian language schools made headlines in international media when, 
in July, 2004, the Tiraspol militia seized the orphanage school in 
Tighina, and schools in Tiraspol, Ribnita and Corjova were closed.
    The closing down for good of these schools was prevented only 
thanks to the international pressure. These days, the situation in the 
eight schools is worsening. Last week, on June 9th, in an open letter 
to the Moldovan Parliament and to Prime Minister Vlad Filat, Eleonora 
Cercavschi, chairwoman of the Lumina Association that represents 
teachers from Transnistria, asked for help.
    She accuses Moldovan authorities of designing discriminatory policy 
against 
Romanian-language schools that use the Latin alphabet. Cercavschi 
argues that these students are put in tougher competition when applying 
to Moldovan universities than those schools controlled by Tiraspol. 
Those, along with the Tiraspol regime's persecution and discrimination 
against pupils, their parents and teachers, are the major cause why 
these five high schools and three middle schools lose students.
    An example: If, in 1989, the total number of students in five high 
schools was about 6,000, in 2011, this number was only about 2,000, 
three times less. The other 80 
Romanian-language schools in the breakaway region continue to use the 
Russian, Slavonic alphabet in teaching of their language, dubbed 
``Moldovan,'' as it was imposed by the Soviet regime on all schools in 
Bessarabia in 1940.
    More than that, today, these schools continue to use an outdated 
curriculum and use textbooks from the Soviet period. If the 
Russification of the Republic of Moldova largely stopped in 1991, when 
Moldova gained independence, it still flourishes in the Transnistrian 
region. Suffer mostly the Romanian-speaking population, but the 
Russification policy also affects other minorities, such as Ukrainians, 
Bulgarians, Jews and Gagauz.
    This 21st-century soft genocide, called by the OSCE ``linguistic 
cleansing,'' mainly against the Romanian ethnic population, resulted in 
sharp reduction of Romanian Moldovans, from 40 percent in 1989 to 31.9 
percent in 2004, while Russian ethnics increased their presence in 
Transnistria from 24 percent in 1989 to 30.4 percent in 2004.
    Schools are not the only target of the regime in Tiraspol. Free 
media cannot penetrate on the east bank of Nistru because of radio and 
TV jamming and prohibition of printed media. Local journalists are 
arrested and intimidated. The arrest, in 2010, of Ernest Vardanyan, an 
Armenian-born journalist, citizen of Moldova and a resident of 
Tiraspol, is the most notorious example of the KGB-style intimidation 
of free press.
    He was accused by intelligence services of Transnistria, which are, 
in fact, the local office of the Russian FSB, of spying for Moldova. 
That is, he was accused for spying for his own country in his own 
country. In March, 2010, the Transnistrian intelligence services 
kidnapped Ilya Kazak, an employee of the Moldovan fiscal inspectorate 
in Tighina. He was kidnapped in the town of Varnita, controlled by the 
Chisinau central authorities.
    Kazak was accused, also, of espionage. His parents have been on 
hunger strikes numerous times for weeks, protesting outside the Russian 
embassy in Chisinau, hoping, through their actions, to secure the 
release of their son, but in vain. Last Sunday, June 12th, Kazak's 
mother approached U.S. Senator John McCain, who was visiting Moldova, 
and pleaded for help. What else a mother can do for her son?
    The private property is another target of the separatist regime. 
From time to time, local farmers are prevented to cultivate their land 
or bring home crops from their own fields. Small business owners can 
also see their property confiscated through different schemes, 
including intimidation, arrest or worse, killing.
    Why are these violations of basic freedoms allowed to continue to 
happen in the 21st century? Who is responsible for it? The right and 
obvious answer is the masterminds behind the separatist movement 
strategy in Moldova's eastern region. Somehow, identical elements of 
this strategy can also be seen in another ex-Soviet republic, Georgia, 
with two separatist regions, Abkhazia and South Ossetia, that launched 
a war against the central government in Tbilisi in 1991-1992, the same 
time when the war against the central government of Moldova happened.
    In all these cases, Russia played the major factor in triggering 
the conflict and then supporting the separatist puppet governments. As 
in Georgia's Abkhazia and South Ossetia, in Moldova's Transnistria, 
leaders of the separatist regime are Russian citizens and reportedly on 
payroll of the Russian intelligence services and military. Blaming only 
Russia for the existence of Transnistria is just part of the story. 
There are other actors who benefit from the status quo, mainly in Kiev 
and in Chisinau.
    Smuggling of arms and good, human trafficking and others are also 
associated with Transnistria, dubbed the ``black hole of Europe.'' But 
the main responsibility has to be put on shoulders of the political 
leadership in Chisinau. After all, most residents of Transnistria are 
Moldovan citizens, although Moscow and Kiev rush in giving passports in 
expedite mode to everyone who asks, in order to later claim the need 
for protection of their citizens and, eventually, claiming the 
territory east of the Nistru River. Russia's actions in Moldova are as 
many and as reckless, as allowed by both the Moldovan government and by 
international community.
    Mr. Gingrey. Mr. Spanu, if you don't mind trying to finish up in 
the next 15 seconds or so, we have other panelists, but continue.
    Mr. Spanu. OK. Moldova's Western partners--United States and the 
European Union, as well as other mediators like OSCE--should put more 
pressure on Moldova, but also offer support when it comes to provide 
basic services for residents in Transnistria.
    When a Moldovan citizen from Transnistria comes to law enforcement 
in Chisinau to ask for help, they usually are told that Transnistria 
has no--that they don't have jurisdiction over Transnistria, which is 
wrong because the person who orders arrests, beatings and torture is 
the president of the self-named Transnistrian region but those who 
execute are those in prosecution office and militia and so forth. And 
in all of the cases or most of the cases they are a citizen of Moldova, 
they need to be prosecuted and asked to respond for their unlawful 
actions.
    Mr. Gingrey. We'll go ahead and stop there with your oral 
presentation, and your written remarks will be part of the permanent 
record. And now we'll hear from our next panelist, Vladimir Socor. 
Vladimir is a senior fellow at the Jamestown Foundation and a former 
analyst with Radio Free Europe and Radio Liberty. Mr. Socor?
    Mr. Socor. Thank you. I have been asked to review the background of 
the Transnistria conflict and to provide an accounting of the current 
state of play. It is frequently observed that the conflict in 
Transnistria is comparatively easier to resolve than the conflicts over 
territories of Georgia or Azerbaijan because this particular conflict 
has neither an ethnic, nor a religious component. Therefore, the 
solution seems to be more reachable.
    Why, then, has the solution not been reached during the past 20 
years? It is, of course, because of the role of Russia. The conflict in 
Transnistria has been entered into the international diplomatic lexicon 
as a conflict between two parts of Moldova. This is the greatest 
success of Russian diplomacy in the last 20 years, in terms of 
approaching this conflict.
    We are in the presence of an interstate conflict between Russia and 
Moldova. There is no inner conflict between two parts of Moldova. The 
conflict originated in the overt Russian military intervention of 1991-
1992, when units of the Russian 14th army stationed in Transnistria 
occupied, in a piecemeal fashion, one-by-one in a low-level conflict 
operation, the seats of Moldovan authorities on the left bank of the 
Nistru River.
    And in March, 1992, elements of the Russian 14th army crossed over 
onto the right bank of the Nistru River and established a large 
beachhead in the city of Bendery and around it. It was a clear case of 
foreign military intervention. It culminated with the shelling of the 
right bank of the Nistru River by the 14th army in 1992, resulting in a 
ceasefire agreement signed by the Russian Federation and the Republic 
of Moldova.
    This was a ceasefire agreement between the Russian Federation and 
the Republic of Moldova, not between two parts of Moldova. The 
agreement was signed and ratified by then-President Boris Yeltsin and 
Mircea Snegur of Moldova. Transnistria was not a party to the conflict. 
Russian diplomacy subsequently introduced the fiction that Transnistria 
is a party to the conflict while Russia is a mediator, and this fiction 
is being accepted to the present day.
    It will be very difficult to remove this approach from the five-
plus-two negotiations, which are about to restart in Moscow on June 21. 
This frame of reference is officially accepted by international 
diplomacy. It will be very difficult to change it, and it is the main 
reason why the conflict remains unresolved--because it's misinterpreted 
as a civil conflict, which it is not.
    Since 1992, Russian troops are stationed in the Transnistria region 
of Moldova in the role of peacekeepers. This peacekeeping operation 
lacks any international legitimacy. It is a purely bilateral 
arrangement imposed by Russia on a weak and incompetent Moldova back in 
1992, which has never changed. This arrangement is part of Russia's 
wider policy of obtaining international acceptance of Russia's role as 
a peacekeeper in the so-called former Soviet space.
    Moldova, South Ossetia, Abkhazia, at one time Tajikistan, possibly 
at the present time Kyrgyzstan are examples of Russia's attempts to 
establish a peacekeeping monopoly on the former Soviet-ruled 
territories. The international community has never granted acceptance 
to Russia for this role but it has tolerated it in practice without any 
official acceptance.
    A peacekeeping monopoly is one ingredient to rebuilding a sphere of 
influence, and this is what is happening, also, in Transnistria. 
Transnistria, as I mentioned earlier--and this is generally 
acknowledged--is not an ethnic conflict or an inter-ethnic conflict; 
however, it does have an unmistakable Russian dimension. Transnistria 
is a Russian-ruled territory.
    Most of its officialdom are people born in Russia, part of the 
Russian hierarchy or chain of command, who are assigned to jobs or to 
administrative positions in Transnistria. It is an operation, so to 
speak, of holding the fort for Russia, pending a more active resurgence 
of Russia in Europe. Most of Transnistria's leaders are born in Russia 
and seconded to Russia on this mission.
    Transnistria state security ministry is a branch of Russia's 
intelligence services. Its leader, from 1992 to the present day, 
General Vladimir Antyufeyev, used to be a commander of the Russian 
special police in Riga, Latvia, and moved from there--he is from 
Russia--he moved from Riga, Latvia, to Transnistria in 1992 under a 
covert identity, which he soon thereafter revealed.
    Negotiations to resolve the Transnistria conflict began almost as 
soon after the ceasefire agreement of 1992. The negotiations went 
through a lot of stages, and there is a lot of negotiating acquis and a 
lot of negotiating of documents that was generated by this negotiating 
process. And I'm going to skip most of these stages, but I want to 
explain the background to the current negotiations, which are about to 
resume in Moscow on June 21, after a five-year breakdown.
    Negotiations were strictly a Russia-Moldova bilateral matter from 
1992 until 1997. In 1997, Russia lent a semblance of internationalizing 
the negotiating format by co-opting the OSCE and Ukraine. The OSCE is 
the only international organization in charge of handling this 
conflict. The OSCE mission in Moldova, active since 1993, has, as the 
main part of its mandate since 1993, resolution of the Transnistria 
conflict.
    The OSCE is very poorly equipped for this job because Russia has an 
internal veto power in the OSCE. Putting the OSCE in charge, either of 
negotiations or of a possible replacement peacekeeping operation, would 
be the worst solution. It would provide a semblance of 
internationalization without the reality of internationalization due to 
Russia's veto power within the OSCE. The OSCE cannot speak, much less 
act, without prior consent by Russia in the internal deliberations of 
this organization.
    In 2005, when Russian influence was at a low ebb in Europe and in 
Eastern Europe and U.S. influence at an all-time high--in 2005--it was 
possible to internationalize in a genuine way the negotiating format. 
That was the origin of the five-plus-two format, which was joined in 
2005 by the United States and the European Union in the capacity of 
observers. So the format consists of Russia, Ukraine, OSCE, United 
States, European Union, Chisinau and Tiraspol. This is the five-plus-
two format established in 2005.
    This format has had a life of five months, from October, 2005, 
until March, 2006. At that point, Russia and Tiraspol dropped out of 
the negotiations in response to a decision by the European Union to 
establish a border control mission on the eastern border of Moldova, 
EUBAM--the European Union Border Assistance Mission. In response to 
that, Russia and Tiraspol dropped out of the negotiations and blocked 
the negotiations until now--the official negotiations. Informal 
contacts were continued.
    So this is the process that is about to restart in Moscow on June 
21. What has led to the initiative to restore the negotiations--the 
official negotiations? Primarily, a German initiative--the initiative 
agreed at the top level by Chancellor Angela Merkel and Russian 
President Dmitry Medvedev in June, 2009, in a document known as the 
Meseberg Memorandum, signed in the Meseberg Castle near Berlin.
    It is an ideological tenet of German foreign policy to include 
Russia, in one way or another, in the decisionmaking processes of the 
European Union, and potentially down the road, in the decisionmaking 
processes of NATO, as well. The German chancellor's office has thought 
of a possible way of achieving this goal, and that would be for Russia 
to prove to the European Union that it can be a constructing partner in 
settling one European Security issue--Transnistria--because this is 
regarded, of the reasons already mentioned, as easier to solve, 
compared to other conflicts.
    So Russia is asked, by Berlin, to be constructive in resolving the 
Transnistria issue, in return for which, under the Meseberg Memorandum, 
which is published, Russia and the European Union would establish a 
joint committee on European security affairs for joint decisionmaking 
on European security issues--a way for Russia to gain access to EU 
decisionmaking processes. Russia's entrance ticket to this mechanism 
would be a constructive attitude on settling the Transnistria issue--a 
low price to pay, in my view, but these are the terms under which 
negotiations are resuming. There are a number of pitfalls----
    Mr. Gingrey. Mr. Socor, if I could ask you to conclude within the 
next minute, your remarks, thank you.
    Mr. Socor. OK, thank you. There are a couple of potential pitfalls 
in the negotiations that are about to resume on June 21 in Moscow. The 
first would be a starting document that would establish the principles 
of the new negotiating process that would contain ambiguities regarding 
the Transnistrian status in a reintegrated Republic of Moldova.
    That might open the way for Transnistria to exercise decisionmaking 
powers in Chisinau's internal governance, not just local autonomy for 
Transnistria but a role for Transnistria in the decisionmaking 
processes of the central Moldovan government. This is in the form of 
some sort of federalization.
    This is one pitfall and the other pitfall would be pressure on 
Moldova to give up its law of 2005 about the basic principles of 
settlement of the Transnistria conflict. Those principles include 
democratization in Transnistria as part of the process of conflict 
settlement, going hand in hand with the process of conflict settlement 
and the political resolutions that would follow the withdrawal of 
Russian troops from Transnistria--following the withdrawal of Russian 
troops--and the internationalization of that peacekeeping operation. 
Thank you.
    Mr. Gingrey. Thank you very much. And our final panelist, and I 
would ask him, respectfully, to keep it between five and seven minutes 
with your oral presentation, Lyndon Allin, a corporate attorney and 
policy expert, has done extensive work on Transnistria. Mr. Allin?
    Mr. Allin. Thank you very much, Mr. Chairman. Thank you to the 
Commission for convening this meeting and for inviting me to talk today 
about economic interactions within and around Transnistria. I'm really 
happy that we're gathered and convened under such an optimistic idea of 
looking for a breakthrough in the conflict-resolution process.
    I want to emphasize, first, that my remarks are offered in a 
personal capacity and I'm not going to try to provide a detailed legal 
or economic analysis of any of the issues that I discuss. What I'm 
going to try to do is highlight the economic circumstances that are 
going to have to be addressed if we hope to move towards settling the 
Transnistrian conflict.
    Those issues are, principally, Russian economic assistance and 
Transnistrian and foreign business interests in the region. I'm also 
going to talk a little bit about the potential upside if the conflict 
can be, ultimately, resolved, resulting from reintegration of a number 
of regional networks, which are currently fractured by the conflict. So 
I'm not going to talk about other issues. Those have been quite well-
handled by my colleagues. I'm not going to use the F-word--
federalization. I'm going to just stick to economic issues.
    So first, economic assistance from Russia. Russia subsidizes 
Transnistria's budgetary operations in two ways. First, Russia provides 
publicly declared subsidies of $25 million a year, roughly, to assist 
the Transnistrian Government in supplementing local pension payments. 
This assistance fosters a sense, among the Transnistrian public, of 
being part of Russia.
    In fact, it undermines Russia's official position on Moldova's 
territorial integrity, which is that Transnistria is a part of Moldova, 
and it means that residents of Transnistria are going to be concerned 
about who might provide them with such aid in the event of a conflict 
settlement. One of my interlocutors in Transnistria once said to me 
that the conflict boils down to the question of who pays for us.
    So to a certain extent, there are going to be some welfare issues 
that have to be taken care of down the road. Russia also allows 
Transnistrian authorities to cover budgetary shortfalls using money 
that they collect locally for gas payments. Gazprom does not demand 
payment from Transnistria directly. And I'll deal with that a little 
bit later, also.
    Transnistria's economy, according to some local experts, would be 
sustainable only for two to three months if these forms of Russian 
assistance were cut off. So who are Transnistrian economic actors? I 
will focus on the most important one of those, which is Sheriff, which 
monopolizes trade in the region, including food, gasoline, wholesale 
and retail.
    They have some production assets. They also run the local 
television network and the only local Internet and fixed-line and 
mobile telephone service. So they're a monopoly provider of a number of 
services to Transnistrian residents. Sheriff's business model depends 
on relationships with Transnistrian officials and on market distortions 
created by the conflict.
    For example, their supermarkets can get away with selling expired 
and counterfeit goods because consumers don't have a lot of options. 
Some of the assets owned by Sheriff and other economic actors in the 
region were acquired in the Transnistrian privatization program. This 
was another way that the government filled its economic shortfalls in 
recent years.
    Those privatizations are not valid under Moldovan or international 
law; nevertheless, in the past, the Moldovan Government in Chisinau has 
acknowledged the need to reach an agreement on property rights of 
existing owners in the event of a final settlement. So that's going to 
be a very important issue down the road.
    This is also going to be an issue for the foreign property owners, 
principally Russian and Ukrainian, in the region. The two most valuable 
industrial assets in the region are foreign-owned. The first of those 
is MMZ, a modern and competitive steel mill that's located in Ribnita. 
It's the largest enterprise anywhere in Moldova and, in the past, has 
been the country's largest exporter.
    Interestingly, the interests of local elites in Transnistria and 
foreign investors are not always aligned and MMZ's Russian and Ukraine 
owners have had some disputes with the Transnistrian authorities in the 
past, and that may come to the fore again in the future. The factory 
purchases scrap metal from right-bank Moldova, which is an example of 
how interaction with Transnistria can be profitable to Moldovan elites.
    The second large industrial asset that's owned by Russian interests 
is the power station at Kuchurgan, which was designed to supply 
Moldova, as well as large parts of Ukraine and the Balkans, with 
electricity. It's owned by an affiliate of Russian electricity provider 
RAO UES. Both of these industrial plants run exclusively on Russian 
natural gas and their ability to pay discounted rates on this gas is 
important to their profitability. Nevertheless, they would likely be 
profitable under market conditions, as well.
    The region also has other viable production assets and 
Transnistrian exporters are able to take advantage of Moldova's trade 
preferences with the European Union. Overall, it's estimated that 35 
percent of Transnistrian exports go to the European Union. So the 
upside potential from resolution of this conflict would be the ability 
to knit back together some of these networks that have been broken up 
by Transnistria. It's a shame we don't have a map.
    Transnistria runs along most of Moldova's eastern border and, 
basically, it breaks up a lot of transit routes that run eastward 
toward Ukraine and Russia supply and infrastructure networks within and 
around Moldova were designed to operate in the context of regional 
integration.
    Instead, they're fractured and operate inefficiently as a result of 
this conflict. Enterprising and corrupt actors have created workarounds 
to evade or cooperate with the multiple sets of officials and borders 
in the region and, over time, these workarounds have hardened into 
self-perpetuating economic ties, which are going to be very hard to 
dislodge.
    Among the systems that are fractured are the telephone system--it's 
not integrated between the two banks of the Nistru, which results in 
higher costs for callers on both sides; power generation and 
distribution, which suffers from non-transparent and politically 
motivated pricing and corrupt transfer pricing schemes; transit routes 
and railways, which are periodically blocked off and held hostage to 
the political situation; natural gas, which is a special case.
    Gazprom has a single contract with Moldova, which has enabled the 
Transnistrian portion of Moldova to run up debts of over $2 billion 
over the last 20 years and to argue that the internationally recognized 
Moldovan authorities must pay them. Also, Transnistria has its own 
currency system and central bank, which will be a big challenge for 
reintegration.
    So because of all these fractured networks, I would say that the 
region's full economic potential is also held hostage to this conflict. 
So what conclusions can we draw? There are going to be a lot of 
economic challenges to reaching and implementing a stable, durable 
settlement. First among those is going to be treatment of the gas debt.
    Additional ones will be guarantees or some kind of arrangement for 
current holders of Transnistrian assets, dealing with Transnistrian 
public concern about the loss of Russian-funded social assistance. 
Here, we have an unfortunate example of the triumph of fear over hope 
among the Transnistrian population. They know what they have and they 
are afraid of change.
    We are going to have to deal with corrupt regional elites who want 
to maintain personally profitable arrangements. There are a lot of 
potential benefits, I would argue, to people on all side and parties on 
all side. First, Russia could benefit if it no longer has to serve as 
Transnistria's economic lifeline. Russia's Gazprom could benefit from 
greater payment discipline.
    Ukraine could benefit from better transit routes westward and less 
corruption on its western border. And the benefits to the entire 
population of Moldova, including Transnistria--more efficient markets, 
better work opportunities, et cetera--I think are obvious. Because of 
the setting of this briefing, I'd like to make some recommendations 
about what U.S. policymakers can do.
    First, the U.S. needs to give Moldovan products permanent normal 
trade relations treatment and terminate the applicability of the 
Jackson-Vanik Amendment to Moldova. Moldova should also be considered 
for a visa-waiver program. This would help make right-bank Moldova 
economically more attractive to Transnistrians.
    Second, the U.S. should promote regional cooperation on 
anticorruption enforcement, to include Moldovan, Ukrainian and Russian 
authorities, particularly as this issue has been a signature for 
Russian President Medvedev. This could be perhaps a part of an OSCE-
administered resource center on economic development, which is proposed 
in my colleague, Matt Rojansky's, written remarks, which I encourage 
you to check out.
    Hopefully, these remarks have made clear that the involvement of 
and difficult decisions from all sides will be required to resolve this 
conflict. Therefore, my final recommendation to the U.S. is that we 
should encourage our partners in Europe, Russia, Ukraine and Moldova to 
devote the necessary political will to pursuing a durable, 
comprehensive settlement of the Transnistrian conflict. Thank you.
    Mr. Gingrey. I want to thank all of our panelists for an excellent 
briefing on the situation and prospects for unfreezing Moldova's frozen 
conflict in Transnistria. Let me start off by asking a couple of 
questions and then I'll refer to the other staff members on the dais, 
including our staff director, who will follow me. And then we'll open 
it up for questions from any of you, and the mic here to your left and 
my right is where you'll come to present your questions.
    And this really is for any of the panelists: What measures may be 
taken to effectively hold the Tiraspol regime accountable for its human 
rights violations? Were the recent trials by the Transnistrian 
authorities of Kazak--am I saying that correctly--and Ernest Vardanyan 
conducted fairly? What do you think motivated the Transnistrian 
leadership to try these men and sentence them to such long periods of 
imprisonment? Mr. Ambassador?
    Amb. Munteanu. Well, at this point, I don't see how the 
Transnistrian leaders can be motivated, personally, to respond to the 
claims from the human rights organizations or from the political 
institutions because they are not responsible to the population inside 
and they are not responsible to the international law. It is not 
applied in this region.
    I think, however, that through OSCE and through the members of the 
negotiation format five-plus-two, to conduct a very comprehensive 
report on the situation of human rights and to have a common view on 
how to prevent violations of human rights in the region would be seen 
as an improvement in the situation of so many people which are still 
detained in Transnistria.
    The second: Of course, in order to advance on this complicated 
issue of protecting human rights, there are some elements of 
democratization that need to be implemented in the region. And 
democratization means guarantees for free press, free movement of 
people, a kind of oversight of the security forces, which impede this 
process of the democratization and liberalization of the legal space. 
These kind of steps would generate a positive response from the 
population of the region, which is, unfortunately, hostage to this 
current situation.
    Mr. Gingrey. Mr. Ambassador, thank you. Anyone else want to comment 
on that? Yes, go ahead, Mr. Spanu.
    Mr. Spanu. Thank you, Mr. Chairman. In those 15 seconds, I couldn't 
answer because that was exactly what I was going to cover. I was trying 
to jump from one place to another. But in responding to that question, 
I think, besides what the ambassador mentioned--the international 
pressure--it's necessary to hold accountable those people who commit 
these unlawful arrests of Mr. Vardanyan and Kazak, their detention, and 
who set the system that is not based on the law.
    There are two main people--and the speakers here talked, today, 
about them: Smirnov, who is the President of Transnistria, put by 
Russia in since 1991, and Antyufeyev, who runs the intelligence 
services. Those lawyers and the human rights groups who examine all 
these cases, including Vardanyan's and Kazak's and many, many others--
they see a pattern. They see orders from this Smirnov and Antyufeyev 
and there are executors down the line who do these concrete actions.
    And as I tried to mention, those executors--some of them are 
Moldovan citizens. So they need to be filed cases against them by the 
Moldovan law enforcement and prosecutorial offices because these people 
freely travel to Chisinau--to Moldova--or Ukraine or to other places. 
They commit these crimes but they are not held accountable. So if they 
will know that they will stay, one day, in court for their actions, 
they will think twice about executing orders from Smirnov or 
Antyufeyev.
    Mr. Gingrey. Thank you very much. I want to ask one last question 
and then we'll quickly go to others for their questions. And I'll 
direct this question to Mr. Socor, who I went out of turn just a minute 
ago--but do you think that the current status quo is satisfactory to 
Moscow? And if so, what needs to change for Russia to be willing to 
negotiate seriously on Transnistria's status? What are the prospects 
for it to recognize Transnistria as an independent state?
    Mr. Socor. Russia has never pursued the goal of effecting 
Transnistria's final separation from Moldova. To the contrary, Russia 
wants Transnistria to remain, on paper, a part of Moldova in order to 
share political power with the central government in Chisinau and to 
act as an insurmountable obstacle to Moldova's Euro-Atlantic 
integration. This has been Russia's goal since 1992 and remains 
Russia's goal.
    Russia has a minimal and a maximal objective in Moldova. The 
minimal objective has been named by my colleague, Vlad Spanu: 
consolidating a Kaliningrad-type exclave on the border of the threshold 
to the Balkan Peninsula and on the southwestern border of Ukraine, 
forming a strategic chain of Russian military outposts, together with 
the Crimea. This is the minimal goal.
    The maximal goal is to integrate Transnistria's political 
leadership with that in Chisinau by awarding Transnistria de facto veto 
or blocking power on the political decisions of the central government 
in Chisinau. And that was the main goal of the so-called federalization 
project of 2002-2004, which Russia and Berlin now seem on the verge of 
reviving.
    Mr. Gingrey. Well, thank you very much. And now, we'll turn to the 
staff director, Mark Milosch, for any questions that he might have.
    Mr. Milosch. Thank you very much, Congressman Gingrey. Thus far, 
we've been talking mostly about politics and security issues, which is 
entirely natural. I'd like to switch gears if we could for a moment and 
ask a question about human rights.
    And I'm wondering specifically, is there any prospect for putting 
human rights on the agenda at the five-plus-two talks? I can see 
naturally that Mr. Smirnoff or the Russians would presumably not be 
very eager for this. But it seems to me there are ways that this could 
be done by the OSCE or the EU and the U.S. that might be difficult to 
resist. I'm thinking particularly of trafficking.
    When trafficking is out there on the table, it's something that the 
governments have a hard time walking away from. The Russian government 
has many people in it who've actually been quite helpful on the issue 
and if Russia wants it on the table, I think it will be on the table.
    And that could be an issue perhaps in which Transnistria and 
Chisinau could work well, build bridges. There might be something 
there. So I'd like your thoughts on that.
    Secondly, in the Trafficking in Persons Report on Moldova, we have 
very little reporting on Transnistria probably because we don't have a 
lot of diplomatic coverage there. But if any of you have heard anything 
about the trafficking situation or have any perhaps man or woman in the 
street report on that, I would really appreciate hearing it.
    Thanks. I guess we'll start with Ambassador Munteanu.
    Amb. Munteanu. To my knowledge, the issue of the human rights 
situation was never put on the agenda of talks in the five-plus-two 
format, with the exceptional cases when some people were arrested and 
the people were citizens of Moldova, of course the Moldovan side 
attempted to use the negotiation format in order to create a getaway 
for those who were in jail.
    It is not a pressing issue probably for Russians which want to see 
the negotiation of the special status for Transnistria if they would 
not get more. And of course we want to relaunch negotiations in this 
five-plus-two in order to settle some existential problems for the 
populations of this region--movement checkpoints which prohibit free 
movement of the population, even the organization of elections in this 
region.
    I just wanted to mention the fact that holding local elections in 
this region, and we have eight villages on the left bank of the 
Dniester under Moldovan jurisdiction--effective jurisdiction--and we 
have--constantly we are blocked, constantly by militia of Transnistria 
which tried to steal the ballots from the electoral precincts. They 
tried to threaten the people that participate in elections. They tried 
to impose blocking posts for those who want to cross the lines.
    And generally speaking about the human rights situation, population 
of the region feel not only--how to say--constant pressures. They feel 
hard security threats because the demarcation lines which have to be by 
definition free of military equipment and military forces they are full 
with Transnistrian armory and munitions and hardware equipment 
particularly because of the Russian peacekeepers do not fulfill their 
mandatory role. And this is one important issue.
    Speaking about the trafficking situation, we know there are several 
networks of trafficking which have been recently annihilated by the 
Moldovan prosecution and specialized forces. They have their roots and 
origins in the region. But how we can intervene into this situation, 
how the prosecution can act into this region because it is over-
militarized, it is protected by the Russian peacekeepers and our 
prosecution forces cannot act there.
    And on a different note, if there will be in Chisinau in order to 
investigate some cases, the Transnistrians will say that, look, 
Moldovans they are staging a new war. So this situation is much more 
complex and more complicated than it could be seen from outside. Thank 
you.
    Mr. Socor. May I contribute an answer to that question? Introducing 
the issue of democracy and human rights into the negotiations would be 
a great innovation and as in all diplomatic processes it would take a 
long time to implement because it would almost revolutionize the 
existing routine five-plus-two negotiating process. So formally 
introducing this issue would be very difficult.
    However, on the one hand, Moldova's law of 2005 on the principles 
of settling the Transnistria conflict stipulates that a settlement can 
only go hand-in-hand with democratization in Transnistria because 
otherwise a settlement negotiated with the incumbent leadership in 
Transnistria would consolidate the role of this Russian-installed 
dictatorship.
    So a settlement cannot be concluded with this type of leadership. 
That's on the one hand. On the other hand, Moscow is aware of 
objections to the current leadership in Transnistria on democratic 
grounds.
    Therefore, Russia is about to change the regime in Transnistria and 
so, so to speak, we won't have Smirnov and Antyufeyev to kick around 
anymore pretty soon because the Kremlin administration chief Sergey 
Naryshkin and the Russian security council secretary Nikolai Patrushev 
recently in May summoned Smirnov to Moscow and asked him to depart from 
office.
    One month later, Konstantin Kosachyov, chairman of the Duma's 
international affairs committee, attended a meeting of the Supreme 
Soviet in Tiraspol, making clear that Smirnov and Antyufeyev have to 
go. So we will have a new leadership also installed by Russia in 
Transnistria but with less of a monstrous face than Smirnov's face.
    Russia's candidate to succeed Smirnov--Russia's declared candidate 
to be the new leader of Transnistria in Tiraspol is a character named 
Anatoly Kaminski, who is an ethnic Ukrainian, a native of Bashkiria, 
who was assigned in Soviet times to a job in Moldova in right bank 
Moldova, not in left bank Moldova.
    This is another example of these sort of individuals with no ties 
whatsoever to Moldova or to Transnistria who are being assigned to hold 
the fort for Russia in Transnistria. We'll have to be prepared for a 
regime change in Transnistria orchestrated directly from Moscow and 
changing the person of the leaders--Smirnov to Kaminski--and changing 
the name of Transnistria Supreme Soviet into Transnistrian Parliament. 
And this will pass for some kind of political reform.
    Mr. Gingrey. I think Mr. Spanu wanted to comment as well.
    Mr. Spanu. Yes, thank you, Mr. Chairman. I think including in the 
five-plus-two form of human rights is not only good but it's a must for 
the settlement to be reached. And first of all, Moldovan Government 
needs to push this forward as well as OSCE, European Union and the 
United States. Ukraine must be interested because Ukrainian citizens 
are deprived of their rights. So it is--Russia would not be willing 
to--and Transnistria of course not--but at the negotiation tables 
everyone comes with its item on the agenda. So it must be pushed by all 
the parties.
     Regarding trafficking in persons, we forget one simple thing. This 
person travel outside of the country through the airports and airports 
are in Chisinau and in Kiev and in Odessa. So you need to have land 
borders controlled as well as airport border control and to prevent 
this trafficking and then go and persecute these people.
    Till now, most of the human rights cases like arrest of the mayor 
of Corjova which is under the--within the unification control 
commission which is set by Russia Ukraine Moldova jurisdiction, but 
these people are not efficient in terms of solving a concrete problem, 
that arrest of mayor of Corjova. Therefore other mechanisms need to be 
put in place, as I said, internally in Moldova as well, as it was 
suggested, in the five-plus-two format to raise the importance of the 
human rights violations. Thank you.
    Mr. Milosch. Thank you.
    Mr. Gingrey. Any other questions from staff? Yes?
    Ms. Packer. My first question is to Mr. Socor. The five-plus-two 
talks are supposed to resume on June 21st in Moscow, and can you 
elaborate on what you think the German non-paper recently circulated, 
how that might impact the outcome of these negotiations?
    The second question is to Mr. Allin. While your recommendations for 
addressing the conflict are commendable, and extending PNTR and 
retraction of Jackson-Vanik and addressing corruption are all 
commendable, I think that speaking of allowing Moldova in to the visa 
waiver program is premature.
    As you all acknowledged, a central government does not effectively 
administer its borders or extend its control over its territory, which 
are prerequisites for any country entering this program. So what I 
wanted to ask you is whether you think that extending economic 
sanctions or travel restrictions might affect the players in the 
monopolies in Transnistria and the parties outside of Moldova.
    Mr. Socor. Thank you for the question. The situation with the 
German non-paper is a very strange one. The European Union is a 
participant in the five-plus-two talks. It should have a position--a 
starting position in these talks. It does not. Instead, one member 
country of the European Union-- Germany--has published its own position 
which does not have the endorsement of the European Union, but neither 
has the European Union rejected the German paper.
    And this very situation reflects the fact that the European Union 
plays a weak hand in its foreign security policies, and on the other 
hand the bilateral German-Russian relationship is emerging to undercut 
any foreign policy that might be commonly agreed by the European Union.
    The German non-paper pursues the goal of facilitating a 
Transnistria settlement, not necessarily on terms consistent with 
Moldova's sovereignty and territorial integrity but primarily on terms 
consistent with Russian interests so as to facilitate Russia's entry 
into the European Union bilateral mechanisms which I mentioned earlier, 
creating the appearance that Russia is being cooperative on the 
Transnistria settlement.
    So therefore the German non-paper--the starting position in this 
negotiation-- with remember, Germany not being a participant in the 
negotiation, being only a member of the European Union--the starting 
position does not mention withdrawal of Russian troops, opens the way 
for a role by the Transnistrian authorities in the central government 
of Moldova and is being accompanied by the [inaudible] of responsible 
German diplomats trying to persuade their Moldovan counterparts to 
accept, A, some kind of federalization formula and, B, to give up the 
Moldovan law of 2005 on the principles of a Transnistria settlement.
    So we have a convergence of German and Russian views which if 
allowed to prevail on this issue might constitute the basis for a wider 
German-Russian partnership on settling European security affairs, 
circumventing the European Union, circumventing NATO and indirectly 
sidelining a role for the United States. And here I would like to 
complete my answer.
    I'd like in just one sentence to add a recommendation for U.S. 
policy. Since 2007-2008, approximately 2007, more or less--the United 
States has taken a back seat to the European Union in Transnistria-
Moldova issues, allowing the EU to define the Western negotiating 
position with the United States supporting whatever the EU decides. 
Given the weakness of the EU role, it is time for the United States to 
advance from the back seat and to regain the front seat it once had in 
these negotiations.
    Mr. Gingrey. Did you have another question?
    Mr. Allin. Sure. Thanks for the question. I don't think that 
economic sanctions from the U.S. would have any great impact on any of 
the players in the conflict. You know, the U.S. has from time to time 
been cited as a market for some of the Transnistrian exporters.
    But I don't think it's significant enough to have a real impact, 
not to mention the fact that those companies have an ability to 
reorient their exports eastward if markets in the West are cutoff. I 
think actually that what such sanctions would do is just kind of feed 
the siege mentality that allows the current Transnistrian authorities 
to maintain some legitimacy in the eyes of their population.
    And so I actually don't think that--I think they would probably do 
more harm than good. I would draw your attention to one of the items 
that I cited in my written remarks, which is the FinCEN alert about a 
number of Transnistrian banks that was put out earlier this year. I 
think that's the kind of measure that the U.S. can take that's useful. 
I would also note that while I don't think it's related, what I mean to 
say is I don't--FinCEN was piggybacking on Russian complaints.
    There were Russian complaints last year about--last summer about a 
Gazprom bank which strangely is not affiliated with Gazprom, 
apparently, but which is owned by a member of Smirnov's family and 
which was alleged by some in Moscow to be performing machinations with 
some of the humanitarian aid funds that Russia sent.
    So again, I would emphasize I think I understand that it seems like 
a very bland recommendation to collaborate on anticorruption. But I 
think that if that's done, that can be done with real teeth; it's 
something the Russian Government has certainly shown a lot of 
rhetorical interest in within its own country.
    Certainly I would think they'd like to protect their taxpayer 
money, you know, during the time that it is still going to 
Transnistria, and that's an area in which I think there may be room for 
some collaboration.
    Mr. Milosch. Yes, thank you, Lyndon. Now, we'll hear from 
Ambassador Munteanu.
    Amb. Munteanu. Thank you very much. I just wanted to add my comment 
to the second part of your question related to the visa waiver. Well, 
you know, it is a matter of truth that Moldova cannot at this point 
control its borders because of what we have discussed so far.
    But nevertheless, this is not an impediment for the European Union 
to work hard with the Moldovan authorities in visa liberalization 
regime. And we are advancing quite with speed towards the visa 
liberalization for Moldovan citizens. And this is really heavy 
incentive for the institutional framework in Moldova and also for the 
citizens of Moldova.
    I think that it should be seen also as an incentive for the 
security sector reform in Moldova, which encompass minister of interior 
reform, border monitoring reform, biometrical passports which are 
introduced since January 1st, 2010.
    And I think you have also if the United States wants to be an 
active promoter of the settlement--conflict settlement--and will be not 
in the back seat but in the front seat of this car, I think visa waiver 
should be seen as incentive that citizens of both banks of the Dniester 
will see a real accomplishment that can be achieved. Thank you.
    Mr. Milosch. Thank you, Ambassador. Before we move to question from 
the audience, I'll invite Kyle Parker to ask the witnesses.
    Mr. Parker. Thank you, Mark. And I have a few questions kind of 
scattered, so pardon me. We're at a briefing and hopefully it's an 
interesting exchange of ideas. It's interesting to me to ask if the 
proximity of a few eastern chairmanships of the OSCE is any reason for 
hope?
    You know, we recently had the Kazakh chairmanship and the 
Lithuanians are quite engaged. We'll skip a year with Ireland and then 
go back to Ukraine. Does this give us any reason for hope? Sort of 
developing that, how relevant is any success on this conflict to the 
other conflicts, the more acute conflicts? They are different 
situations to be sure.
    But I know in terms of trying to get people interested here in 
Washington, one of the issues is the prospect for success, and also 
along those lines, what is an appropriate yardstick of success? I think 
when you're looking towards total solution and resolution it seems, 
right now at least, that there's not a whole lot of reason to think 
that's happening any time soon.
    At the same time, in these conflicts, you do have the dogs that 
don't' bark. And the notion that it simply--I mean, the status quo 
remains is--I hate to call that a success but in a sense it's also not 
a failure given what we've seen in some of the other conflicts.
    Another question I'm wondering you know, Moldova has sort of the 
unfortunate--it has a number of sort of unfortunate distinctions, 
including the poorest country in Europe, more recently the World Health 
Organization largest consumption of alcohol in the world, high rates of 
multiple-drug-resistant TB, and other things.
    And as we look towards the human face, the human cost, 
comprehensive security, how much of these types of indicators can be 
attributed to sort of a wound in the country, or the conflict, or the 
sore? Certainly that is obviously going to have an effect of deterring 
investment and certain things that could perhaps improve standards of 
living.
    And on WTO, I'll just note that Moldova is a very interesting case 
of being an early WTO member, sort of a poster child for a lot of 
interesting reforms, including land reform in the early 1990s and still 
subject to Title IV of the Trade Act--a very interesting paradigm that 
has some relevance as we move towards looking at the possibility of 
terminating Title IV to other countries.
    And last, if you would pardon two last points, one is just a 
question. Recently the Holocaust Memorial Museum was able to work 
something out--and this was thankfully agreed to--Vice President 
Biden's visit on access to Holocaust-era archives in Moldova. This is a 
matter that's been of great interest to this Commission over many 
years.
    And we know that some of the worst atrocities of the Holocaust were 
committed on Moldovan soil, and particularly on the area that is now 
called Transnistrian soil--but that part of the country. I would 
imagine a lot of those sites are un-memorialized and unmarked.
    And I'm wondering is there perhaps an interesting opportunity for 
sort of a new type of confidence- and security -building measure in 
terms of collaboration on both sides on memorializing this important 
history? I say that that's something that would certainly have, I 
think, the interest of some in Washington.
    It comes with interesting political, ideological baggage 
potentially but at the same time it's telling the truth, and I would 
think that that should be something that all sides can get together on 
and look into. It would be interesting to know if that idea might have 
any legs.
    And lastly, Lyndon, to your point on corruption and collaboration 
with Russia, I would just have to say while you do mention sort of 
rhetorical support, certainly by way of actions and the reality on the 
ground in Russia, it certainly doesn't match the rhetoric we've heard 
from some in the senior Russian leadership.
    And in terms of being concerned about taxpayer money as it's going 
to Transnistria, I'm a little skeptical particularly when we have not 
seen a whole lot of concern, to put it charitably, about Russian 
taxpayer money to the tune of almost a half a billion dollars that was 
stolen by Russian tax authorities in the frauds uncovered by Sergey 
Magnitsky that have lately featured prominently in the news, including 
on Russian television.
    NTV just did a 20-minute spot a weekend back on national TV. So I'm 
I guess skeptical, to put it mildly, on where we can go with that in 
terms of moving beyond sort of simple rhetoric on anticorruption and 
also, Vlad, your idea of putting some teeth into this.
    I'm wondering if anyone might comment on the wisdom or the ability 
of using tools like the Interpol red notice to sting some people. 
Moldova does have the ability to do that. It is an Interpol member. 
It's an easy enough thing to do and that is an awful thing to have in 
terms of cramping your style and ability to travel and vacation around 
the world. Sorry for the million questions and----
    Mr. Milosch. Well, as usual, Kyle pitches them high and hard. I 
guess we'll start off with the ambassador.
    Amb. Munteanu. Thank you very much for your questions. It is always 
very good to have a long list of questions because you can pick up what 
exactly you prefer to respond. I will start with the last question 
which is very important--the Holocaust Museum. We have a great respect 
for the efforts put by the Holocaust Museum and restoring the memory.
    And we all know that the Jewish population of Moldova before the 
Second World War was very important, a considerable part of the urban 
population and the restoration of the leagues with their memories, 
their personal attributes, it is very important. We have a constructive 
cooperation with the Holocaust Museum.
    Their leaders have to pay a visit by the end of June to Chisinau. 
We have adopted a delegation to the low which protect the personal data 
and this will allow the Holocaust Museum and their executive staffers 
to work in the archives which have been closed so far. And we 
understand very well that this is not an overnight effort. It will 
require a lot of institutional steps in order to reach the truth, I 
would say.
    But I think that in what concerns and worries Transnistria in this 
equation--Transnistria is a space where hate speech is on the agenda of 
the day, I would say. It is anti-Semitic discourse. It is anti-Moldova 
discourse. It is anti-Western discourse. So when we try to understand 
how the Holocaust Museum will accomplish its mission, of course it is 
open and it can do its work in Chisinau and other cities which are in 
effective jurisdiction of Moldova, not today in Transnistria. They are 
not sensitive to the human rights violations. They are not sensitive to 
the issues that are part of our common memory. And of course as soon as 
we will come closer to a final settlement, we will have a solution 
favorable to the Holocaust Museum.
    But of course, if the United States is interested, it should also 
put the leg in the door and also advance the idea of having an 
important dimension of the human rights and the five-plus-two format of 
negotiations and also the Holocaust Museum. You know, Moldova cannot be 
responsible for the crimes and atrocities committed in the Second World 
War--the Republic of Moldova. It was too young a state. But we 
understand very well how important it is to cooperate with the 
institutions.
    The status of the poorest country in Europe--just to put it 
bluntly, we have been deprived in 1991, 1992 by 40 percent of our 
economic potential which are located in Transnistria. This explains the 
level of deprivations of the population.
    And the consecutive steps that were made in the last two decades to 
transform the ownership of the industry to create the basis for the 
economic growth--it mutated into a strength of the economy. By 1989, 
for instance, Moldova had reached only 45 percent of its 1989 GDP. And 
we try to re-accommodate ourselves in these new international realties.
    Now, we have 55 percent of our goods being exported to the European 
market, which is a significant change in the structure of the economy. 
We are benefiting from the automatic state preferences provided by the 
European Union. And I've mentioned before that a large number of 
Transnistrian enterprises, they can export without paying border 
excises to the European markets--their goods.
    They do not pay taxes to the state budget, which is not totally 
positive, not totally good. But this is an important incentive for the 
business community to develop own agenda in advancing and performing. I 
think that if Moldova will receive the normal trade regime with United 
States, this will also influence positively the way how the business 
community plans their life and their business.
    This will create incentive for change in the minds of the 
Transnistrian population as well. And I think that coming closer to the 
association agreement with the European Union--and we are doing 
everything necessary in order to advance in this way--we will see 
different results and a different Moldova for those who want to be part 
of European--a larger Europe--for those who want to remain loyal 
citizens of Moldovan state and for those who believe that our place in 
the Western community of democracies. Thank you.
    Mr. Milosch. Thank you. I guess we'll move next to Mr. Socor.
    Mr. Socor. I'd like to take up the question about the role of the 
OSCE chairmanships. Although the OSCE as an organization has been a 
complete failure in Moldova and in South Ossetia due to Russia's veto 
power within the organization, nevertheless the chairmanships are 
immune from Russian veto power. They have a far greater leeway for 
action.
    What can we expect from the current Lithuanian chairmanship or from 
the Ukrainian chairmanship in 2013? Lithuania has changed its approach 
to policies towards Eastern Europe in the last two years due to the 
unfavorable trends geopolitically and economically in Europe.
    Lithuania has renounced its former role of a vanguard player in 
terms of extending NATO and EU influence eastwards. For the last two 
years, Lithuania has played a far more cautious role than it used to 
be. And this is reflected in the way in which Lithuania is exercising 
its chairmanship of the OSCE. The official approach of Lithuania is 
that even a millimeter of change would be a great positive success.
    This is the Lithuanian approach. This official statement, 
constantly repeated, of Lithuania's officials, even a millimeter's 
worth of progress will be a great achievement, therefore nothing really 
to expect much. In 2013, Ukraine will be the OSCE chairman. Ukraine has 
never been able to clarify its policy towards a Transnistrian conflict, 
neither under the Kuchma nor under Yushchenko nor under the Yanukovych 
presidency.
    Ukraine does not want to add another contentious issue in its 
bilateral relationship with Russia. At the same time, Ukraine does not 
want to be encircled from the southwest. Ukraine was never able to 
resolve this dilemma. In the interest of the eastern Ukraine oligarchs 
in the bilateral relationship with Russia, usually trump the strategic 
interest of the country itself.
    Let us, however, not underestimate the 2012 Irish chairmanship of 
the OSCE. And I know this firsthand from conversation with people from 
Dublin. Ireland is eager to share its own experience of conflict 
resolution in Northern Ireland. There is a proliferation of outfits in 
Ireland trying to share this experience on the international level and 
even trying to make a consultancy type of business out of this.
    And so therefore for the Irish minister of foreign affairs 
approaching proactively the frozen conflicts in former Soviet 
territories will be a mark of the Irish chairmanship. This chairmanship 
will operate much less free from a Russian veto compared to the 
Kazakhstani chairmanship of one year ago or compared to the Ukrainian 
chairmanship of 2013.
    So I think it will be possible to work with the Irish chairmanship 
of the OSCE constructively and proactively. Again, however, what the 
chairmanship can achieve is not to resolve anything but to put the 
issue on the table and keep it on the table, at least so that the issue 
is not relegated to oblivion. And to answer very briefly one of your 
other questions, what can be a measurable progress in the year ahead or 
in the months ahead or in this calendar year, what could be measurable 
progress.
    Measurable progress would be to pressure Russia to comply with its 
commitments under conventional treaty forces in Europe to withdraw the 
troops from Moldova. The review conference of the CFE treaty is due to 
take place shortly.
    The United States and NATO collectively would be remiss if they 
would not publicly raise the issue of Russia's unfulfilled commitments 
under the CFE treaty, including the withdrawal of troops from Moldova, 
from the occupied territories of Georgia, and also in the CFE treaty, 
much neglected, the withdrawal of Armenian troops from the occupied 
territories of Azerbaijan. So these three issues need to be raised, not 
in the hope of affecting an immediate resolution this year, but to keep 
these in the public--this debate in the public eye.
    Mr. Milosch. Thank you, Mr. Socor. I'm going to have to ask the 
next two witnesses to--in order that we will have time for audience 
questions--to be very concise. Thank you.
    Mr. Spanu. Thank you, Mr. Chairman. I just would add a few words in 
addition to what Vlad said about OSCE chairmanship and I will focus on 
Ukraine. I think Ukraine's role in its chairmanship role in 2013 has a 
great potential but has a small probability that it will play a great 
role, because among all these players who deal with the Transnistrian 
conflict, Ukraine has a good set of keys to solve the conflict because 
it's on its border, because it's control many, many elements of the 
conflict.
    And if Ukraine fully cooperates and is fully committed for this 
resolution of the conflict, I think we have a chance to move forward. 
But looking back, what happened during the last two or three years 
comparative to what happened in 2004-2005, I think the probability is 
not so large.
    Regarding all your other good ideas, it underlines that all these 
ideas should be put in a strategy or a roadmap, and this strategy and 
roadmap should be initiated first of all by the Moldovans, by the 
Moldovan Government. For the time being, Moldovan Government for 19, 20 
years didn't have any strategy how to deal with the Transnistrian 
conflict.
    And to incorporate into all these ideas from the West, from the 
Moldovan experts in 2004 among the speakers, three of us participated 
in co-authoring the treaty strategy that was mentioned. During the 
Communist Party leadership in Moldova, we were able to convince the 
opposition to the Communists in the West to be engaged in a new 
strategy.
    Today there is none. Why? These are big questions for the current 
Moldovan government. And the second, why in the budget of Moldova of 
this year, of next year, of last year, there is no--put enough money to 
implement programs on confidence building measures, maybe because it's 
not a strategy. Maybe it's their things involved. These two things that 
Moldovans need to do if they are serious about resolution of the 
Transnistrian conflict. Thank you.
    Mr. Milosch. Thank you. Lyndon?
    Mr. Allin. Thanks. The question about corruption, of course I 
understand your skepticism. I just--the point that I would make is that 
there are bilateral gov-gov contacts on these issues. Regulators do 
talk to regulators.
    There's no reason for it not to be raised. Perhaps it's another 
suitable topic for the five-plus-two, you know, as another format where 
it might be raised. I would also mention that there has been Russian 
public outcry, at least in the press and on the Internet, about the 
much larger sums of aid money but really funds probably pre-designated 
for embezzlement that were sent to South Ossetia in the past couple of 
years.
    So there is the potential. I'm just proposing that there's a 
potential to get Russian civil society and, you know, you get somebody 
like [inaudible] to take up this issue and all of a sudden people will 
say, hey yeah why are we sending all this money to that place. And then 
it becomes something that's a little bit harder for the Russian 
government to sweep under the rug. So that's my only point about that.
    Regarding your question about Moldova's unfortunate status as the 
poorest country and apparently hardest drinking country in Europe, I 
think a large part of my written testimony was intended to address 
specifically that question.
    I do believe that the conflict has had a large impact on the 
economic well-being of the country and of its citizens. I would note 
however that it's a poor country where one sees a lot of very nice 
automobiles in the capital city. I saw a Bentley the last time I was in 
Chisinau.
    So the elites, both in Chisinau and Tiraspol, seem to be doing OK, 
which of course is part of the problem with getting some progress on 
conflict resolution.
    Regarding the WHO alcohol consumption study, I confess that my 
first thought when I saw it was to wonder whether the methodology 
somehow involved imports or something that could have--where the 
anomaly could have resulted from somebody gaming customs stickers 
simply because that behavior is so common really on both sides of the 
Dniester. Thanks.
    Mr. Milosch. Thank you, Lyndon. Kyle mentioned in his question dogs 
that don't bark. I think he was referring to the famous Sherlock Holmes 
line about the strange thing the dog did in the night. Watson, the dog 
did nothing in the nighttime. That was the strange thing.
    We have a lot of un-barked dogs here I think. In about 12 minutes--
I don't think we've really mentioned Romania very much, which is a 
striking thing. So I throw that out to you to take up, or maybe you 
have some other dogs that you'd like to pursue here. We have a 
microphone on the right and anybody in the audience who'd like to ask a 
question is welcome to come to the microphone. I guess turn it on right 
now. I see the light. Introduce yourself and ask a question of our 
panelists. Please?
    Questioner. Hi. I'm Richard Sola from Radio Free Europe. My 
question is directed to Ambassador Munteanu primarily. We've spoken 
about Russia quite extensively during this hearing. But I wanted to 
hear from you if you feel that--or you get the sense that the United 
States is raising the issue of Transnistria at a high enough level in 
the so-called reset that the Obama administration has made such a high 
goal of its foreign policy.
     And even just kind of some basic information, how much contact do 
you have between kind of the architects of the reset and your own 
office on this issue--you know, how much is it being discussed with you 
and with the Russians as far as you know, and how do you feel about the 
level?
    Amb. Munteanu. Thank you very much for your excellent question. Of 
course, we feel the arm of support from the United States in many 
areas, in particular to the negotiation format.
    Just not to leave a wrong impression that Moldovan Government is 
doing nothing, I would point out the fact that we have presented by the 
end of April a non-paper on the principles of the conflict settlement, 
and this concept has been circulated towards all the interested 
parties--of course to the United States as well, which commended the 
value and clarity of scope and principles which were proposed by the 
Moldovan Government.
    In addition to that, of course we have made great efforts to 
combine forces and to have a chain of friends behind us in setting up 
the target for this conflict settlement. And I think that this is quite 
an important advantage if we compare with five years ago, when we were 
still under the consequences of the failed Kazakh memorandum.
    Today, our friends in Europe do not question the legitimacy and the 
main principles which we see as major for the conflict settlement--
indivisibility of the country, sovereignty and unitary state. We feel 
that this hand of support may do more work and the policy of reset 
create special gateways and windows for discussing strategic issues 
with the Russian Federation.
    We mentioned several times the Russian Federation because it did 
not fulfill its commitments from 1999 and from Istanbul Summit 
declaration, and it also failed to commit itself with the reduction of 
arms. And I think that there are many doors to be opened in this 
strategic dialogue with Russians.
    But I truly share the concerns that the human rights violations 
create frustration among the population of the region, which feels 
itself alienated from the political process in Moldova and from the 
benefits that our proximity with the European Union extends to the 
whole society of the Republic of Moldova.
    I remain positive and my colleagues in the Moldovan Government 
remain positive that more things have to be achieved this year in 2011 
irrespective of the name of the chairman of the OSCE and irrespective 
to the bumps in the road which we know there are many. Thank you.
    Mr. Milosch. Thank you, Ambassador. Do we have any more questions? 
Mr. Spenu?
    Mr. Spenu. Yes, I want to add on the reset issue--I hope that the 
reset setting is a good frame for the opportunity to solve the 
Transnistrian conflict at the level of the Russia-U.S. relationship and 
it's not an impediment, not a distraction from this. Thank you.
    Mr. Milosch. Thank you. Any more questions? OK, well I think it 
will be extremely difficult for me to summarize what was said today.
    I did see two themes that the optimism that we've heard recently 
about the push on the part of the EU and the U.S. Government for 
settlement in Transnistria has been challenged today, and yet we've 
heard a lot of comments about the necessity of pushing forward with 
this.
    I would like to thank Winsome Packer for organizing this briefing, 
Josh Shapiro for administratively organizing it. And thanks to all of 
you for coming today. With that, we're adjourned.
    [Whereupon, at 11:47 a.m., the briefing was adjourned.]
<DOC>
A P P E N D I C E S



    Let me first welcome everyone to this morning's briefing to examine 
the human cost of the unresolved conflict in Transnistria, and the 
prospects for a lasting resolution of the longstanding conflict. 
Exactly ten years ago I chaired a Commission hearing--the first of its 
kind specifically focused on Moldova--``Moldova: Are the Russian Troops 
Really Leaving?'' A decade later, a residual contingent of Russian 
troops continues to be deployed in this divided country notwithstanding 
specific commitments Moscow made in 1999 at the Istanbul OSCE Summit.
    For almost twenty years, a corrupt and despotic regime has governed 
Transnistria, with the aid and support of the Russian Government. 
Russia has maintained troops and armaments in Transnistria since 1992, 
against the wishes of the Moldovan Government, and in violation of its 
Helsinki Final Act and other international commitments, regarding the 
stationing of foreign forces on the territory of another state without 
the consent of the host government, and respect for the sovereignty and 
territorial integrity of other states. As a consequence, Moldova's 
central government is unable to extend its administration to 
Transnistria, and there is an absence of democracy, human rights, and 
the rule of law in the region.
    The governing regime in Tiraspol, Transnistria's self-proclaimed 
capital, has overseen a sustained campaign to stifle civil society, 
free media, and any political opposition. Governance in Transnistria is 
characterized by the arbitrary arrest of citizens who differ with the 
ruling regime, and journalists, including Ernest Vardanean, who was 
sentenced to fifteen years in prison-but recently released, under 
pressure from the international community. Tax officer, Ilie Cazac, who 
was arrested with Mr. Vardanean on charges of espionage, remains 
imprisoned. The State Department's 2010 Country Reports on Human Rights 
Practices cites numerous instances of such arbitrary arrests, pressure 
on judges, and corruption in the judicial system, where bribes often 
determine the sentences during trials. The courts which issue these 
judgments have no legal standing and are politically-motivated.
    Farmers living on the other side of the Nistru River face 
difficulties in farming their lands on the eastern (Transnistrian) 
side. Transnistrian authorities have expropriated the properties of 
thousands of citizens, without compensation. Moldovans who travel to 
Transnistria face harassment from the authorities. Elections are 
routinely rigged. Romanian language schools in Transnistria are 
regularly harassed by Transnistrian ``authorities'' and Moldovan 
citizens of face serious obstacles in receiving education in their 
national language.
    Outside the authority of the government in Chisinau, an illegal 
smuggling industry thrives in Transnistria, benefitting the ruling 
cadre, their Russian partners, and some Ukrainians. While improved 
since the European Union instituted customs monitors at a section of 
the Ukrainian and Transnistria boundary, customs fraud remains a 
problem. The absence of effective control by the central government 
over the territory of Transnistria contributes to illegal arms 
smuggling with Russia and other illicit transport. While notable 
progress has been made, trafficking in persons remains a significant 
challenge for the government of Moldova against this backdrop.
    The OSCE, the European Union, and the U.S. have worked to effect a 
peaceful resolution of the Transnistria conflict. Moscow, while going 
through the motions when it comes to talks, appears content with the 
status quo effectively contributing prolonged instability and 
insecurity in the affected areas. But renewed interest by the U.S., as 
evidenced by Vice President Biden's March visit this year, and 
intensified efforts by the European Union, have raised the prospect of 
an ultimate resolution of the Transnistria conflict.
    We are fortunate to have an impressive panel of experts, who have 
been engaged with Moldova and the Transnistria frozen conflict for 
decades. We look forward to hearing their views on these critical 
concerns and any recommendations they may offer regarding the 
resolution of the conflict. The panelists' bios are available outside 
the hearing room, so I will not read them. We will hear first, from 
Ambassador Igor Munteanu, Moldova's Representative to the United 
States. Ambassador Munteanu will be followed by Mr. Vladimir Socor, a 
senior fellow at the Jamestown Foundation, Mr. Vlad Spanu, President of 
the Moldova Foundation, and Mr. Lyndon Allin, a corporate attorney and 
policy expert who has done extensive work focusing on Transnistria. We 
also have a written statement from Mr. Matthew Rojansky, Deputy 
Director of the Russia and Eurasia Program at the Carnegie Endowment 
for International Peace, which will be included in the briefing record.


    Mr. Speaker, almost twenty years after they started from 
secessionist movements, the protracted conflicts in Moldova, as well as 
those in the South Ossetia and Abkhazia regions of Georgia continue to 
be a source of instability and insecurity in the OSCE region. They have 
been of longstanding concern to the Helsinki Commission, where we have 
addressed developments and the prospects for resolutions of these 
conflicts through Commission initiatives as well as at meetings of the 
Parliamentary Assembly of the Organization for Security and Cooperation 
in Europe.
    Within a week, the formal five plus two talks among the parties to 
the negotiations on resolving the frozen conflict in Transnistria, 
Moldova--the OSCE, U.S., EU, Russia, Ukraine, plus Moldova and 
Transnistria--will resume in Moscow. The fact that the formal 
negotiations are resuming, five years after they were halted by the 
withdrawal from the talks of the Russian and Transnistrian sides, have 
given rise to optimism in some quarters on both sides of the Atlantic.
    Mr. Speaker, any ultimate resolution to the Transnistria conflict 
must ensure that Moldova's sovereignty and territorial integrity are 
fully upheld. A final resolution cannot be merely another ``paper'' 
agreement, where Russia commits on paper to certain obligations, only 
to promptly disregard them, in view of its geo-strategic interests. 
This issue is of grave concern because Russia has repeatedly broken 
signed agreements regarding the stationing of its troops and weapons on 
the territories of Moldova and Georgia, without the consent of those 
Governments. Russia should not be permitted to continue to violate the 
sovereignty and territorial integrity of its neighbors out of some 
artificial perception of its entitled ``sphere of influence.''
    In this respect, Mr. Speaker, intensified efforts and political 
will on the parts of the Moldovan Government and the international 
community will be necessary to ensure that Russia finally fulfills its 
commitment to withdraw its remaining troops and weapons from 
Transnistria. Only then will Moldova's re-unification, democratization 
and potential for economic prosperity be fully realized.


Dear Chairman, Honorable Members of the Commission, Colleagues,

It is a privilege for me to be here and speak in front of such a 
distinguished audience.
    1.  Allow me to state from the outset that the origins of the 
Transnistrian conflict were not ethnic, nor racial or religious. With 
its mixed population the region is not a state or a nation, being an 
artificially separated territory following the military conflict in 
1992. The trigger for secession was opposition of the Soviets to the 
independent statehood pursued in Moldova by the largest majority of the 
population.Military hostilities started in March 1992 and lasted till 
July 21, when a cease-fire agreement was signed by Presidents of 
Russia/Moldova, introducing Peace-keepers with the aim to stop military 
operations and disengage hostile sides.

    2.  An OSCE Mission has been established in Moldova after 1993, but 
it has been obstructed to perform its main tasks, under constant 
objections including from the separatist regime, as regards the 
requested military inspections, alleged arms production, or 
accumulation of military illegal forces in the so-called `demilitarized 
zones'.

    3.  Unconstrained by international law, the separatist regime 
turned into a `safe heaven' for criminal activities, smuggling and 
constant violations of the human rights, which performed systematically 
imposed a totalitarian control over population, business and mass 
media.

    4.  Movement of people is hindered by multiple checkpoints. People 
are put in jails and tortured physically or morally, if they show a 
dissent towards the official propaganda endorsed by the so-called 
`Tiraspol authorities'. Of special target are people which oppose the 
regime, like the settlement of the left bank which remained under 
Moldova's jurisdiction, and Moldovan schools, whose teachers are 
harassed, whose parents are intimidated, and whose licensing is 
suspended by the regime. Just to mention that in spite of the OSCE 
Mission actions, situation of the Moldovan schools remain unclear, and 
that was the main reason why the EU introduced a visa ban for the 
leaders of the separatist regime in 2004, after their shutdown.

    5.  Of special concerns is the situation of political prisoners, 
arrested by the local KGB. In 2004, EHCR found Russia `guilty of 
actions or inactions that led to the arrest of Ilascu Group', and 
imposed fines to be paid, calling Tiraspol to release people that were 
jailed for 12 years.

    6.  In 2010, Ernest Vardanyan, a journalist from Moldova was 
arrested under accusation of espionage for Moldova, he was jailed for 
more than one year. Other cases of illegal arrests, used by the 
authorities to claim afterwards payments for their liberation have been 
reported, almost weekly. In the same year, another Moldovan citizen, 
Ilia Cazac, was arrested by region's KGB and sentenced for 15 years of 
prison under accusation of spying for Moldova. In April 2011, Vardanyan 
was released, but several other people remain still in jail for alleged 
accusations which in some cases seem to be an ordinary attempt to 
extort money from their families, as this is documented by Amnesty 
International, Helsinki Group, other watchdogs.

We want this situation to be changed by creating all necessary 
conditions to reintegrate the region into the Moldovan state within its 
internationally recognized borders as of January 1, 1990.

    7.  We call for settlement of the Transnistrian conflict 
exclusively by peaceful means, through a transparent negotiation 
process, in the framework of the existing 5+2 format. Today we have a 
favorable international situation, defined by an increased attention to 
a viable settlement from Moldova's major partners: EU, US, Russia and 
Ukraine. As well, we notice a gradual intensification of the political 
consultations. In 2010 there were 5 unofficial meetings in the 5+2 
format. In 2011 there have been two meetings, first in February and 
second in April, testing the ground for official re-launch of talks, 
although visions are still far too distant.

    8.  We hope that the meeting scheduled for June 21 in Moscow will 
mark the resumption of the 5+2 official format, with all 5 actors 
aiming to restore trust and respect international law. Once the 
official negotiations are re-launched, we will be able to see a clearer 
perspective in the settlement process and move towards identification 
of the status of the Transnistrian region.

    9.  Moldova's position is well-known: Transnistria shall be an 
integral part of Moldova within its sovereign constitutional space; it 
is supposed to enjoy a large degree of administrative, financial and 
political autonomy. Respect of democratic norms, values and practices 
shall prevail, while national legislation shall be applied in full 
throughout the territory.

    10.  Resumption of negotiations shall not be done for the sake of 
resumption, but on clear ideas related to the full and comprehensive 
settlement of this conflict, appropriate to consolidate a viable, 
democratic, independent and sovereign state of Moldova. We see this as 
a matter of exclusive internal power-sharing mechanisms, and emergence 
of a territorial autonomy in Transnistria, similar to the Gagauz 
Autonomy, as it is defined by 1994 Special Law.

    11.  It is by default, that a special statute will provide 
fundamental civil and political rights to the population without any 
discrimination, on the basis of international and European conventions. 
In fact, National Parliament of Moldova has adopted already in 2005 a 
Law on the principles of the conflict settlement, in line with 
international and European rules, protecting the rights of the local 
and regional governments and, we want this sovereign law to be 
respected in full and acknowledged by the mediating parts.

    12.  It is my pleasure to commend in the same regard the findings 
and conclusions of the Senate Committee on Foreign Relations' report 
distributed in February 8, 2011, under the name ``Will Russia End 
Eastern Europe's Last Frozen Conflict.''

    13.  Wrapping up my references to the basic principles of the 
Transnistrian conflict settlement, I would like to quote VP Biden, who 
put them in a very eloquent way during his March visit to Chisinau--he 
said ``the only solution that can be accepted is the solution which 
would ensure the respect of the sovereignty and territorial integrity 
of RM within its borders recognized by the international community. The 
future of Transnistria is within the RM.''

Dear colleagues:

    14.  Today, Moldova is a democratic state, which is proudly 
advancing towards an AA with EU. It has ratified and is effectively 
implementing European Convention on Human Rights; it is signatory of 
the most important international and European HR conventions.

    15.  As a Member of the Council of Europe, it is regularly 
monitored by specialized committees, which constantly assess the 
progresses towards the rule of law. Following installation of the EUBAM 
in 2006, over 620 Transnistrian firms were registered by Moldovan law, 
which allow them to use the access to the European common market, with 
no taxes paid for their exports.

    16.  Population of the region receives all social benefits from the 
national social budget. Hundreds of fellowships are provided free of 
charge to the region's youth annually. Over 350.000 of its half a 
million population holds Moldovan citizenship, and many of them are 
actively using their rights and freedoms, protected by the Moldovan 
Constitution, and support the reintegration process of the region, 
against the obstructions made by the separatist regime.

    17.  Nevertheless, conservation of the Russian troops and 
ammunitions on the territory of RM is a flagrant violation of the 
Constitution, a violation of international obligations and a challenge 
of to the legitimated authorities of the national government.

    18.  The political solution to the conflict should be consistent 
with the strategic vector of EU integration. A responsible though more 
active participation of the US and EU in the conflict settlement is 
crucial as it brings the impetus and resources necessary in reaching 
the positive result of the process. Why should the Western community be 
interested in solving this problem and how this conflict can affect the 
West? The region is only 60 miles away from the border of NATO and EU, 
therefore this conflict is directly affecting the EU security areas.

    19.  And we are talking here about 60 miles, something comparable 
to the distance from here where we are now to Fredericksburg, VA--1 
hour drive. So, the danger generated by the existence of a region of 
instability at the immediate proximity of the Euro-Atlantic community 
is obvious and it is also obvious that the price of solving the 
conflict is far lower than the price of instability and risks of 
escalation.

    20.  A civilian mission under international mandate would be of 
great value to the viable conflict settlement by taking stock of the 
ammunition and troops concentrated in the Security Zone between two 
banks of Nistru river. Today, there is not enough information about the 
heavy deployments of military equipment and arsenals. At the same time, 
efforts to change the existing so-called peacekeeping forces with an 
international mission under the mandate of an international 
organization should be intensified.

    21.  Constant violations of the human rights must be stopped and 
innocent people are to be released form jails of the regime. Moldovan 
authorities call international organizations to intensify their 
watching and monitoring activities on the region's situation, and 
intensify collective efforts to stop the existing abuses, ensuring 
basic rights to be protected.

    22.  We call towards all states and actors that are involved in the 
5+2 format of negotiations to abstain from any sort of actions that 
directly or indirectly obstruct restoration of the Moldovan sovereignty 
over the region, focus attention to the 3D commandments that are 
indispensable for a fair settlement: democratization, demilitarization 
and decriminalization of the region.

I think I will stop here to pass the floor to the next speakers and to 
leave more room for discussions during the Q&A session.



Igor Munteanu was born on August 10, 1965, in Costuleni, Ungheni. He 
holds a Bachelor of Arts degree in Communications and Journalism (1989, 
Moldova State University), a Masters degree in political analysis and 
administration (1992, Romania's National School of Political and 
Administrative Studies) and a Doctoral degree in Law (2002, Free 
International University of Moldova.)

He has expertise in the field of local public administration and public 
sector reform, having as an educational background political sciences 
and administrative law. Since 1993, Igor Munteanu has established 
together with a group of young intellectuals of Moldova one of the 
first think tanks, known as ``Viitorul Foundation.'' The foundation has 
emerged into a specialized public research institute, IDIS Viitorul. 
Since 1996, Igor Munteanu has acted as Executive Director of IDIS 
Viitorul.

Igor Munteanu has written and edited several publications published 
abroad, as well as in the Republic of Moldova, being actively engaged 
as freelance author in the international and national press as 
political commentator to the Radio Free Europe (1997-2005). Often, he 
is involved in national political debates. He is a member of the 
Institutional Committee of the Congress of Local and Regional 
Authorities of the Council of Europe.

In August 2010, Igor Munteanu was appointed ambassador to the United 
States.


    I would like to express gratitude to the U.S. Helsinki Commission's 
members and staff for including this important topic--the conflict in 
the Republic of Moldova's eastern region--in its agenda. Special thanks 
to Winsome Packer and Kyle Parker who made this briefing today and 
other briefings and hearings on Moldova in the past possible. I express 
this gratitude on behalf of those who suffer the most because of this 
externally imposed conflict--that is, the residents of towns and 
villages on the Eastern Bank of the Nistru. Although they constitute 
the majority, those people are not represented at the negotiation 
table, including in the ``5+2'' format. Their voice is not heard not 
only in Moscow, Brussels, Vienna or Washington but even in their own 
capital, in Chisinau. They are not on the front pages, they are not 
interviewed by public or private TV stations in the Republic of Moldova 
to say their painful story of living in ghetto-type setting where 
residents have no rights.
    What is happening today in the Eastern region of Moldova, 
controlled by the puppet separatist regime installed in Tiraspol in 
1990-1991, is nothing else than a continuation of the Soviet Union's 
geopolitical policies, now, after 1991, embraced by the Russian 
Federation. To understand better this conflict, one should look back 
into history. There are several events that have to be remembered when 
tackling the Transnistrian conflict.
    First, the 1792 Treaty of Iasi, signed between the Ottoman Empire 
and the Russian Empire, after which Russia, for the first time, 
reaching the Nistru border and became the neighbor of the Principality 
of Moldova.Second, the 1812 Treaty of Bucharest, resulted in the 
partition of the Principality of Moldova, the Eastern half of which was 
incorporated into Russia as Bessarabia until the 1917 Bolshevik 
Revolution.
    Third, the 1924 creation, within the Soviet Ukraine, of the 
Moldavian Autonomous Soviet Republic on the Eastern Bank of Nistru 
where the majority constituted ethnic Romanian population, as bridge-
head to once again successfully occupy Bessarabia in 1940 by the Red 
Army, as an outcome of the Stalin-Hitler pact of 1939.
    Finally, in 1990-1991, the same territory East of Nistru, with its 
main city in Tiraspol, was once again used by the Kremlin master-minds 
as an outpost to keep the Soviet Moldova from getting away from USSR's, 
then, Russia's control.
    Today, Russia's minimum objective in Moldova is to create a second 
Kaliningrad in the South to keep the Republic of Moldova and Ukraine in 
check. Her maximum objective is to get full control of the Republic of 
Moldova, through federalization schemes imposed on Moldova, where 
Transnistria and possible Gagauzia (another enclave inhabited by 
Christian Turks in the South), are to play the main role of holding 
veto power on the future of Moldova, its internal and external 
policies. As a bonus, by reaching these objectives, Russia will be able 
to encircle Ukraine, closing its only large window to the West, thus, 
keeping Ukraine into its orbit.
    Focusing entirely on fruitless official negotiations to solve this 
conflict between Russia and Moldova is a big mistake. During 19 years 
of bilateral (Russian-Moldovan) and multilateral (in current ``5+2'' 
format and previous formats) negotiations, no resolution was achieved 
in ending the conflict. Russian troops are still stationed in Moldova, 
and Russia's support for separatism movement continue, while local 
residents of this region suffer.
    These residents, who are nothing less than geopolitical hostages, 
are not allowed to have access to basic freedoms, including freedom of 
expression, of education in their native language, and of assembly, 
among others.
    Education in the Romanian language is viewed by those in charge of 
this separatist regime as their main threat. This is why, as soon as 
the legislative body in Chisinau, still within the Soviet Union, 
adopted the language law in 1989 that established the return of the 
Roman script to the republic's official language, the Soviet 
authorities in Moscow triggered the separatist movement in the trans-
Nistru district. The alphabet issue became central to the secessionist 
movement and it developed into a ``school war'' against educational 
institutions that opted for Latin characters. As result of 
discrimination policies in the field of education, the majority of the 
population in Transnistria--Romanian ethnics--has only 88 schools. They 
are authorized to teach in the native language, but only eight are 
permitted to use the Latin alphabet.
    The several Romanian language schools made headlines in 
international media when, in July 2004, the Tiraspol militia seized the 
orphanage school in Tighina/Bender and schools in Tiraspol, Rybnitsa 
and Corjova were closed. The closing down of these schools was 
prevented only thanks to international pressure. These days, the 
situation in the eight schools is worsening. This is due to the 
Tiraspol regime's persecution and discrimination against pupils, their 
parents and teachers, but also because of the indifference and ill-
thought policies of the Moldovan authorities.
    Last week, on June 9, 2011, in an open letter to the Moldovan 
Parliament and to Prime Minister Vlad Filat, Eleonora Cercavschi, 
chairwomen of the Lumina Association that represents teachers from 
Transnistria, asked for help. Cercavschi is also principal of the 
Stefan cel Mare high school in Grigoriopol, but it was forced to 
evacuate to another school in Dorotcaia some 20 km away, thus, every 
day, students and teachers have to travel this distance by bus. She 
accuses Moldovan authorities of designing discriminatory policies 
against Romanian language schools that use the Latin alphabet. 
Cercavschi argues that these students are put in tougher competition 
when applying to Moldovan universities than those from schools 
controlled by the Tiraspol regime. These, along with persecution by 
separatists are the major cause why five high schools and three middle 
schools lose students. If in 1989 the total number of students in five 
high schools was 5878, in 2011 this number was only 1837, 3.2 times 
less.
    The other 80 Romanian language schools in the breakaway region 
continue to use the Russian-Slavonic alphabet in teaching of the 
language, dubbed ``Moldovan,'' as it was imposed by the Soviet regime 
on all schools in Bessarabia in 1940. More than that, today, these 
schools continue to use an out-dated curriculum and use textbooks from 
the Soviet period. If the Russification of the Republic of Moldova was 
largely stopped when the country gain independence in 1991, it still 
flourishes in its Transnistrian region. Suffer mostly the Romanian 
speaking population, but Russification policies also affect other 
minorities such as Ukrainians, Bulgarians, Jews or Gagauz.
    This 21st century soft-genocide, called by the OSCE linguistic 
cleansing , mainly against the Romanian ethnic population, resulted in 
sharp reduction of Romanians/Moldovans from 40 percent in 1989 to 31.9 
percent in 2004, while Russian ethnics increased their presence in 
Transnistria from 24 percent in 1989 to 30.4 percent in 2004 (the 
number of Ukrainian ethnics, the second largest after Moldovans, 
remains constant), based on census results.
    Schools are not the only target of the regime in Tiraspol. Free 
media can not penetrate on the Eastern Bank of Nistru because of radio 
and TV jamming and prohibition of printed media; local journalist are 
arrested and intimidated. The arrest in 2010 of Ernest Vardanian, an 
Armenia-born journalist, citizen of Moldova and a resident of Tiraspol, 
is the most notorious example of the KGB-style intimidation of free 
press. He was accused by intelligence services of Transnistria--which 
are, in fact, local office of the Russian FSB--of spying for Moldova, 
that is, he was accused of spying for his country in his own country.
    In March 2010, the Transnistrian intelligence services kidnapped 
Ilie Cazac, an employee of the Moldovan Fiscal Inspectorate in Tighina 
(Bender), in Varnita, a town controlled by the Chisinau central 
authorities. Cazac was also accused of espionage. His parents have been 
on hunger strikes numerous times for weeks, protesting outside the 
Russian Embassy in Chisinau, hoping through their actions to secure the 
release of their son, but in vain. Last Sunday, June 12, Cazac's mother 
approached U.S. Senator John McCain who was visiting Moldova and 
pleaded for help. What else a mother can do for her son?
    The private property is another target of the separatist regime. 
From time to time, local farmers are prevented to cultivate their land 
or bring home crops from their own fields. Let me cite U.S. diplomat 
David Kostelancik, who told the OSCE council on April 21, 2005 the 
following about an incident involving farmers: ``The United States is 
troubled by the ongoing, systematic harassment of Moldovan farmers from 
the village of Dorotscaia by Transnistrian authorities. These villagers 
farm land that is located in an area under the de-facto control of the 
Transnistrian authorities, who last year installed a ``customs'' post 
in the zone. The effect of this move has been to deny the villagers 
access to their farmland, and thus their livelihood. Last year the 
entire harvest for this village was lost due to Transnistrian 
restrictions on the farmers harvesting the fields. This year, the 
harassment has continued, with reports that Transnistrian authorities 
have impounded tractors and detained farmers who are trying to plow and 
sow their fields.''
    Why are these violations of basic human rights allowed to continue 
to happen in the 21st century? Who is responsible for it? The right and 
obvious answer is the master minds behind the separatist movement 
strategy in Moldova's Eastern territory. Somehow identical elements of 
this strategy can also be seen in other ex-Soviet republic, Georgia, 
with two separatist regions--Abkhazia and South Ossetia--that launched 
a war against central government in Tbilisi in 1991-1992. In all these 
cases, Russia played the major factor in triggering the conflict and, 
then, supported the separatist puppet governments. In 2004, in the 
legal case ``Ilascu and others versus Russia and Moldova'' examined by 
the European Court of Human Rights in Strasbourg, the judges concluded 
that the ``Russian 14th Army and other elements of the Russian 
government had contributed to the creation and continued existence of 
the Moldavian Transnistrian Republic (MTR).'' In 2006, lawyers of the 
New York City Bar Association in their study of the Transnistrian 
conflict demonstrated that Russia's activities in Moldova violate 
international law by supporting the Transnistrian regime and having 
military presence on the Moldovan soil without the agreement of the 
Moldovan government.
    As in Georgia's Abkhazia and South Ossetia, in Moldova's 
Transnistria leaders of the separatist regime are Russian citizens and, 
reportedly, on payroll of the Russian intelligence services and 
military.
    Blaming only Russia for the existence of Transnistria is just part 
of the story. There are other actors who benefit from the status-quo, 
mainly in Kiev and in Chisinau. Smuggling of arms and goods, human 
trafficking are often associated with Transnistria, dubbed the ``black 
hole of Europe.'' But the main responsibility has to be put on the 
shoulders of the political leadership in Chisinau. After all, most 
residents of Transnistria are Moldovan citizens, although Moscow and 
Kiev rush in giving passports in expedite mode to everyone who asks, in 
order to later claim the need for protection of their citizens and, 
eventually, claiming this territory, east of the Nistru River.
    Russia's actions in Moldova are as many and as reckless, as allowed 
by both the Moldovan government and by international community. 
Recently, I have asked a ranking member of the Moldovan parliament in 
charge with budgeting how much was allocated in the state budget for 
programs aimed at reunification of the Transnistrian region, like 
education, healthcare, infrastructure. The answer was ``none.'' 
Residents of Transnistria are fed up by empty promises of politicians 
during elections or statements at international forums and they are 
looking for concrete deeds.
    Another simple question to the current Moldovan government is why 
is there no strategy or an action plan on the reintegration of the East 
Bank of Nistru. Even the Communist-led Moldovan government, which was 
in the reaction mode to Russian proposals that ultimately led to the 
infamous Kozak memorandum designed by the Kremlin to federalize 
Moldova, made a few steps towards working with a plan. In 2004, civil 
society experts from Moldova and abroad put together such a strategy 
called 3-D (Demilitarization, Democratization and Democratization of 
the Transnistrian region). Three experts who co-authored or contributed 
to the 3-D strategy promotion in Moldova, in Washington, Brussels and 
Kiev are among witnesses at this briefing. As it turned out, the 
principles laid down in the 3-D strategy were used by the Moldovan 
parliament in three resolutions related to the trans-Nistrian conflict 
adopted in June 2005 and also in the Moldovan Law on the basic 
provisions of the special legal status of the localities from the left 
bank of Nistru River, passed in July 2005. Another element of that 
strategy was the international involvement in searching for settlement 
solutions. In December 2005, the EU Border Assistance Mission for the 
Ukraine-Moldova border was launched, aiming at suppressing the traffic 
in arms, drugs, and human beings, as well as the regular commercial 
contraband of which MTR is consider to be both a source and a transit 
route. Starting October 2005, the European Union and the United States 
joined Moldova, MTR, Russia, Ukraine, and OSCE in the new ``5+2 
format'' of the trans-Nistrian settlement process . But, as previously 
stated, these negotiations did not bring any results in terms of 
resolution, therefore, today, a new approach is needed that should be 
incorporated into a new strategy or plan. The focus should be put on 
confidence building measures, meeting the needs of residents on the 
east bank. The Moldovan government has no excuse why such a strategy 
has not been designed yet, if it claims to be serious in regard to 
Transnistria. Thus, the Moldovan government should not wait for the 
international community to come and solve its problems. Instead, the 
Moldovan politicians should take the lead and do whatever they can for 
their citizens residing in Transnistria, who feel abandoned and 
betrayed by their own government.
    Moldova's Western partners--U.S. and EU--as well as other mediators 
like OSCE should put more pressure on Molodva when it comes to 
providing basic services for residents in Transnistria. When a Moldovan 
citizen from Transnistria comes to Moldovan law-enforcement and 
prosecuting officers for help because their rights were violated, he 
usually hears that his government is impotent in protecting his rights 
or, worse, Transnistria is not part of their jurisdiction. The Moldovan 
government bodies have not only the legal authority, but they have 
obligation to start investigation, file cases against those who 
committed human rights violations, especially when those violators are 
citizens of Moldova, but on the payroll of Tiraspol. Unlawful arrests, 
torture, illegal detention, kidnapping and killing, are ordered, but 
not committed by Igor Smirnov, self-proclaimed president of 
Transnistria since 1991, or by Vladimir Antyufeyev, head of security 
apparatus (indicted for crimes against both Latvian and Moldovan 
states). These Russian citizens are assisted by concrete militia 
officers, prosecutors, judges who blindly follow these orders, for 
which they should be investigated by the Moldovan law-enforcement 
bodies. These people will think twice before they take orders from 
people like Antyufeyev, if they knew that for their unlawful deeds they 
have to answer in a court of justice. Many of these middle and law 
levels executors are citizens of Moldova; they travel freely to 
Chisinau or foreign countries, conducting their private business. This 
practice must simply stop.
    For Moldovan officials it is easier to blame everything on 
geopolitics, on international community that has no stomach to deal 
with Russia and solve this conflict, than to get their sleeves rolled 
and address real problems of very concrete individuals who come to 
Chisinau for help that today are met often with indifference.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


M A T E R I A L    F O R    T H E    R E C O R D



---------------------------------------------------------------------------
\1\ The author would like to express his sincere appreciation to Victor 
Dragutan for help editing and fact-checking this paper. This paper is 
based in part on remarks delivered on June 1, 2011 at the Finnish 
Institute of International Affairs.
---------------------------------------------------------------------------


    Moldova is a small country, with fewer than 4 million citizens, but 
in recent years it has gained symbolic significance on the world stage 
far out of proportion to its size. As US-Russia relations have been 
``reset'' and cooperation has likewise grown between Brussels and 
Moscow on a range of issues, Moldova has been one of the main 
beneficiaries of the improved atmosphere.
    European Union officials now routinely refer to Moldova's 
``encouraging progress'' on reform projects, often as a favorable 
comparison to other post-Soviet states.\2\ In March 2011, Vice 
President Joe Biden, the highest ranking US government official ever to 
have visited Moldova, spoke to a cheering crowd of tens of thousands in 
Chisinau's main square. He described the country's ``journey toward 
democracy'' as sending a message to millions beyond Moldova's borders, 
and described Moldovans' achievements in glowing terms.\3\
---------------------------------------------------------------------------
\2\  ``A new response to a changing Neighbourhood,'' Joint 
Communication to the European Parliament, the Council, the European 
Economic and Social Committee and the Committee of the Regions, 
European Commission, High Representative of the European Union For 
Foreign Affairs and Security Policy, Brussels, May 25, 2011. http://
ec.europa.eu/world/enp/pdf/com_11_303_en.pdf, accessed on June 10, 
2011.
\3\ Remarks by Vice President Joe Biden in Chisinau, Moldova, March 11, 
2011, http://www.whitehouse.gov/the-press-office/2011/03/11/remarks-
vice-president-joe-biden-chisinau-moldova, accessed on June 10, 2011.
---------------------------------------------------------------------------
    But, as Biden acknowledged, it is too early to declare a successful 
conclusion to Moldova's delicate and still evolving post-Soviet drama, 
of which several essential chapters are still unwritten. Alongside the 
ongoing evolution of Moldova's domestic institutions and system of 
government, the most significant clear challenge ahead is resolution of 
the protracted conflict with Transnistria. The purpose of this paper is 
to evaluate the causes, context, and consequences of this conflict and 
to propose some productive next steps for each of the stakeholders to 
the current conflict resolution process, and for the international 
community as a whole.

What is the Transnistria conflict about?

    Much of the Western discourse on Moldova in the past two years has 
praised the country's largely non-violent political transition in 2009, 
when the Alliance for European Integration (AEI), a coalition of four 
parties, displaced the Communists who had held power since 2001. The 
new leadership refers to the 2009 transition as Moldova's ``European 
choice,'' which has been underscored by growing percentages in favor of 
the AEI and its explicitly pro-Europe agenda in two subsequent national 
elections.\4\ Officials are particularly proud of their relatively 
rapid progress in negotiations aimed at reaching an association 
agreement with the EU, billed in Moldova as a key step toward eventual 
EU membership.
---------------------------------------------------------------------------
\4\  ``Pro-Europe Alliance Leads Moldova Vote,'' RFE/RL, November 29, 
2011 http://www.rferl.org/content/modova_elections/2232737.html, 
accessed on June 10, 2011.
---------------------------------------------------------------------------
    But amidst the enthusiasm surrounding Moldova's deepening ties with 
Europe, it is impossible to ignore the most significant potential 
obstacle to the country's future prosperity and successful European 
integration: the conflict over Transnistria, a 400 km long, narrow 
strip of land on the ``left bank'' of the River Dniester/Nistru between 
Moldova and Ukraine. Though internationally recognized as part of 
Moldova, Transnistria declared its independence from Chisinau during 
the breakup of the Soviet Union. Popular sentiment for independence was 
driven by fears on the part of the region's residents that Russian-
speakers would lose positions of economic privilege and perhaps even 
basic language rights within an independent Moldova, or that the 
country might be united with Romania. The brief war that ensued in 1992 
ended with a ceasefire mediated by Russia and enforced by Russian 
military forces. Russian troops remain in Transnistria as part of a 
trilateral peace-keeping operation under the terms of the July 21, 1992 
Moscow Agreement, and to guard the remnants of a massive Soviet-era 
arsenal at Kobasna. \5\
---------------------------------------------------------------------------
\5\  http://www.globalsecurity.org/military/world/war/
transdniester.htm, accessed on June 10, 2011.
---------------------------------------------------------------------------
    Since 1997, the OSCE has managed a conflict resolution process 
which now engages 7 parties in the ``5+2'' format: Moldova and 
Transnistria, with Russia, Ukraine, and the OSCE as intermediaries, and 
the US and the EU as observers. The OSCE-brokered talks have helped to 
defuse occasional crises and to keep the sides in dialogue, but no 
framework agreement has yet been accepted by all sides. The closest 
they came was in 2003, when the Russian-brokered ``Kozak plan'' was 
rejected at the last minute by Chisinau. The parties have met both 
officially and unofficially at various times, with the talks currently 
in an unofficial phase which may change to official following a June 21 
meeting of the parties in Moscow.
    In the intervening time, OSCE inspectors have had some access to 
the former Soviet weapons stockpiles at Kobasna, however Transnistria 
authorities have not permitted the type of unfettered access or 
verified removal necessary to ensure that none of the stored weapons or 
materials are leaving the territory and ending up in criminal hands. 
Indeed, due to poorly regulated borders, it is widely believed that 
Transnistria is a major node in European and global arms, drugs, and 
human trafficking networks. And, although the conflict has been 
``cold'' since 1992, there is still a real risk of resumption of 
hostilities between two heavily-armed military forces if negative 
changes in the political environment were to occur. This would 
undoubtedly draw intervention from Russia and perhaps Romania, Ukraine 
and other states in the region.

History and Culture

    To some degree, the reasons for the outbreak of armed conflict in 
1992 still underlie tensions between right-bank Moldova and the de 
facto Transnistrian Moldovan Republic on the left bank. Although 
Transnistria is ethnically diverse, with a roughly even mix of ethnic 
Moldovans, Russians, and Ukrainians, the dominant official language and 
the language of everyday life on the left bank is Russian. However, on 
both sides of the river, there are schools in which both Russian and 
Moldovan are used, and each language group fears discrimination by 
authorities in Chisinau and Tiraspol--these fears have been justified 
by occasional provocative school closures and curriculum changes, for 
example in Transnistria in 2004.\6\
---------------------------------------------------------------------------
\6\  ``Moldova Schools Resist Threats,'' BBC, September 7, 2004, http:/
/news.bbc.co.uk/2/hi/europe/3631436.stm, accessed on June 10, 2011.
---------------------------------------------------------------------------
    Anecdotal evidence indicates that Russian speakers in Transnistria 
still generally think of Romania as the villain and Russia as the hero 
in a historical narrative dating back to World War II, when Bucharest 
was allied with Nazi Germany. Russian speakers therefore associate 
modern Romanian nationalism with revanchist fascism, a narrative 
heavily informed by the persistence of a World War II memory shaped by 
Soviet ideologists throughout the Slavic core of the post-Soviet space, 
and in overt conflict with a neo-nationalist historical narrative among 
many of the post-Soviet and post-Communist states in Eastern Europe, 
including Romania. Deep fears about possible Moldovan-Romanian union in 
the early 1990's drove Transnistria's secession movement, and they 
continue to cause hostility on the left bank and in Moscow toward 
Moldova's warm relations with Romania.\7\
---------------------------------------------------------------------------
\7\  ``Romania and Moldova `to merge' with Transdniester clinging to 
Russia,'' Russia Today, December 1, 2010, http://rt.com/politics/
russia-moldova-romania-eu/, accessed on June 10, 2011.
---------------------------------------------------------------------------
    Finally, there is a generational crisis brewing, since Moldovan and 
Transnistrian youth who have grown up since 1992 have no memory of 
living together with their neighbors in a single state. The persistence 
of low level conflict and provocation, even though there has been no 
overt fighting, have become a ``normal'' state of being for young 
people on both sides, who can no longer easily imagine a future in 
which the two live together. Some Western-funded programs like the 
youth-oriented ``Transnistrian Dialogues'' \8\ have helped bridge this 
psychological divide, but the longer the sides live in physical 
separation the less urgency each feels to change the situation.\9\
---------------------------------------------------------------------------
\8\  Transcript of British Ambassador to Moldova Keith Shannon's 
interview for Radio Moldova, June 17, 2009, http://
ukinmoldova.fco.gov.uk/en/news/?view=News&id=20644522, accessed on June 
10, 2011.
\9\  Alyona Getmanchuk et al., ``Scenarios for the Development of the 
Transnistria Conflict: Challenges to European Security,'' Institute of 
World Politics: Kyiv, 2011. P. 77.

---------------------------------------------------------------------------
Geopolitics

    Consistent with an approach to conflict resolution that has 
included far flung parties such as Russia and the United States, broad 
geopolitical factors are often perceived as the main obstacles in the 
conflict. While these factors are important, they should be understood 
as one of several layers of obstacles, the removal of which is 
necessary but not sufficient for conflict resolution. A case in point 
is the ongoing dispute over ``host nation consent'' to basing of 
military forces in the area. Russia has expressed an interest in 
maintaining its current force of some 1,500 troops (around 400 of which 
serve as peacekeepers) \10\ in the region, but questions whether it 
could do so in a reunited Moldova. Moscow's interest in keeping a 
military presence in Transnistria has a number of possible 
explanations, but is most likely largely symbolic. The contingent on 
the left bank gives Russia a ``foothold'' in this part of Europe, an 
image of strategic depth against possible threats from the West, and 
perhaps also some psychological leverage in relations with Ukraine, 
which is partially encircled by Russian military outposts.
---------------------------------------------------------------------------
\10\  http://www.globalsecurity.org/military/world/russia/ogrv-
moldova.htm
---------------------------------------------------------------------------
    Moldova, on the other hand, has gravitated increasingly toward the 
West and away from Moscow since the 2009 transition--not only through 
promising negotiations aimed at an association agreement with the 
European Union, but on security and political questions as well. 
Although neutrality is enshrined in the Moldovan constitution, 
influential figures on both sides have hinted that military cooperation 
with NATO and even outright NATO membership is on the AEI's agenda.\11\ 
That prospect is of deep concern to the Moldovan Communists, who still 
have nearly half the votes in Parliament, and it would undoubtedly be 
perceived as a provocation by Russia, which would be more reluctant to 
support Moldova's reunification.
---------------------------------------------------------------------------
\11\  ``Moldovan Defense Minister: NATO Membership Key For Joining 
EU,'' RFE/RL, February 24, 2011, http://www.rferl.org/content/
moldovan_defense_minister_nato_membership_key_for_joining_eu/
2320020.html, accessed on June 10, 2011.

---------------------------------------------------------------------------
Powerful Private Interests

    When analyzing the causes of protracted conflict, it is often 
revealing to ask, ``who benefits?'' In the case of Transnistria, the 
biggest beneficiaries are arguably not states but powerful private 
interests, many of whom exert influence over state policies. There is 
much to covet in the region as it was, during Soviet times, a 
privileged economic zone within the Moldovan SSR, containing at least 
40% of Moldova's industrial capacity, and the only large power plant in 
the region. \12\
---------------------------------------------------------------------------
\12\  The Association of the Bar of the City of New York, ``Thawing a 
Frozen Conflict: Legal Aspects of the Separatist Crisis in Moldova,'' 
2006. P. 14.
---------------------------------------------------------------------------
    The major Soviet-era industrial assets in Transnistria are the MMZ 
steel plant and Rybnitsa Cement plant in the north, and the Cuciurgan 
power plant in the south. All of these are at least partially 
controlled by Russian and Ukrainian oligarchs, who profited from 
Tiraspol's privatization of these assets during the last decade. These 
powerful individuals gained not only from the sale of assets legally 
belonging to all Moldovans, but continue to benefit from an arrangement 
whereby Russia's Gazprom ``sells'' gas to enterprises in Transnistria, 
which pay reduced fees for the gas to Tiraspol, which in turn simply 
allocates that money to the ``state'' budget. The resulting Gazprom 
debt, now worth over $2 billion, is sent to Chisinau, consistent with 
Russia's official position that Transnistria is part of Moldova. Simply 
put, the unresolved status of Transnistria allows oligarchs to profit 
from industrial assets that belong to average Moldovans and gas that 
belongs to the Russian people. \13\
---------------------------------------------------------------------------
\13\  Ibid, p. 87-88; Rebecca Chamberlain-Creanga and Lyndon Allin, 
``Acquiring Assets, Debts and Citizens:Russia and the Micro-Foundations 
of Transnistria's Stalemated Conflict,'' Demokratizatsiya, Spring 2009. 
P. 334-335.
---------------------------------------------------------------------------
    In addition, powerful Transnistrian businessmen, all closely linked 
to the ruling circle of President Igor Smirnov, profit from the favored 
status of the ``Sheriff'' holding company, which dominates all aspects 
of the local economy, from food and liquor retailing to book 
publishing. Sheriff receives protection from the Transnistrian customs 
authorities, who also facilitate smuggling and counterfeiting for the 
benefit of Russian and Ukrainian businesses moving goods in and out of 
the region through the Black Sea. For instance, goods marked for 
Transnistria can enter Ukraine free of customs duties, but, with 
cooperation from the Transnistrian authorities, they often end up in 
Ukrainian markets. Although the de facto authorities control a handful 
of local banks, international transactions with the region are enabled 
primarily by Russian banks, which use their own access to western 
financial markets to help conceal the ownership of companies concerned.
The De Facto Authorities

    One simple explanation for the persistence of tension and low level 
conflict between Moldova and Transnistria is that the de facto 
authorities in Tiraspol are not interested in giving up their hold on 
power. If they negotiate a reintegration agreement, they might keep 
some influence in a unified Moldova, but would not have absolute power 
as they do now. The Transnistrian Moldovan Republic is basically a 
Soviet style government, with a Presidency, a nominal Supreme Soviet, 
and courts that are all loyal to the handful of allies of President 
Smirnov. These Soviet style nomenklatura travel in luxury cars 
distinguished by special 1 or 2 digit license plate numbers with a 
large Transnistrian coat of arms. The authorities keep tight control 
over any political dissent, and find it easiest to simply deport any 
troublesome figures to Moldova, as they did with Moldovan nationalist 
Ilie Ilascu and his supporters following a long prison term. \14\
---------------------------------------------------------------------------
\14\  See, e.g. Ilascu and others v. Moldova and Russia, European Court 
of Human Rights, Application no. 48787/99. (2004)
---------------------------------------------------------------------------
    The Soviet style system of government, the inherited Soviet 
industrial base, and subsidies (in effect) from Russia enable the de 
facto authorities to maintain a high level of economic stability, and a 
standard of living that while low, is slightly higher than in 
neighboring Moldova.\15\ In practice, these benefits come at the cost 
of complete dependence on Moscow, especially since Transnistria's 
independence is not even nominally recognized by Russia. However, as 
one walk past Suvorov Square and the Presidential Administration will 
reveal, the local authorities have converted this dependence into a 
source of pride with larger than life posters of Smirnov, Putin and 
Medvedev, and the slogan: ``Our strength is our unity with Russia!''
---------------------------------------------------------------------------
\15\  Chamberlin-Creanga and Allin, 337.

---------------------------------------------------------------------------
Individuals' Pragmatic Interests

    Thanks to subsidies from Russia and the ``offshore'' gray market 
opportunities of the Transnistrian economy described above, the region 
manages to eke out a standard of living slightly better than that of 
neighboring Moldova. However, individual citizens still seek the kind 
of greater economic opportunity that neither Moldovan nor Transnistrian 
citizenship offers, and so some 100-140 thousand have accepted Russian 
citizenship, a process facilitated by consular offices located in the 
breakaway territory, and consular officials who make a special effort 
to support local Russian affinity groups.\16\ It is believed that there 
are up to 100 thousand Ukrainian and 250 thousand Moldovan passport 
holders in the region as well, however many people have more than one 
document, since this enables them to travel to both East and West.
---------------------------------------------------------------------------
\16\  Chamberlin-Creanga and Allin, 332.
---------------------------------------------------------------------------
    Russia's extension of citizenship to residents of Transnistria on 
such a large scale carries an ominous connotation in light of Moscow's 
past declarations that it has the right and duty to protect the 
interests of its citizens abroad, by force if necessary.\17\ Moreover, 
Russian citizens may receive supplemental pension benefits, and enjoy 
the possibility of studying, working or ultimately settling in Russia 
itself. By contrast, Moldovan citizenship is viewed as far less useful, 
since the country is economically depressed, and up to a third of the 
adult population of Moldova is working abroad, primarily in Russia and 
Western Europe. The unique benefits of Russian citizenship would likely 
be lost to residents of Transnistria if it rejoined Moldova.
---------------------------------------------------------------------------
\17\  ``The Military Doctrine of the Russian Federation'' approved by 
Russian Federation presidential edict on 5 February 2010, 
www.carnegieendowment.org/files/2010russia_military_doctrine.pdf, 
accessed on June 10, 2011.

---------------------------------------------------------------------------
International Context

    Nearly twenty years after the end of fighting, and almost ten years 
since the parties' last concerted effort at resolution of the conflict, 
Transnistria has come into renewed focus thanks to factors outside the 
immediate region. First, the Arab Spring has captured popular 
imaginations worldwide, and on both sides of the Dniester this air of 
change has provoked tough questions about the status quo. If political 
systems that once seemed deeply entrenched can be toppled in the Middle 
East and North Africa, many wonder, why not in the heart of Europe as 
well? Following so soon after Moldova's own popular transition, the 
revolutions in Egypt and Tunisia could underscore challenges to the 
legitimacy of the Smirnov regime, which has held power in Transnistria 
since 1992.
    From the perspective of Transnistrian separatists, recent history 
offers a different set of precedents, namely the recognition by Moscow 
of Georgia's breakaway provinces of South Ossetia and Abkhazia and by 
the West of newly independent Kosovo and South Sudan. These precedents 
provoke the obvious comparisons, and the question, why not us? Those 
Transnistrians who would prefer union with Russia or formal recognition 
as a Russian protectorate draw inspiration from the apparent 
restoration of Russian influence in the post-Soviet space, including 
the victory over Georgia in 2008, the extension of Russia's military 
presence in Crimea through 2042, and the entry into force of the 
Russia-Kazakhstan-Belarus customs union.
    The fast-moving events in North Africa and the Middle East have 
also been a distraction for the key outside participants in the 5+2 
process, particularly as European policymakers and publics have shifted 
attention and resources from the EU's ``eastern neighborhood'' to its 
``southern neighborhood.'' Meanwhile there is far less attention for 
seemingly faraway problems like the Transnistria conflict, since Europe 
is still struggling to save its own debt-ridden member states from 
default and thus preserve confidence in the Euro, while the United 
States faces a budget crisis of its own against the backdrop of an 
impending Presidential election. Finally, perhaps in response to these 
financial woes, varied strains of populist nationalism have been on the 
rise throughout the West. In Moldova's immediate neighborhood, 
chauvinistic statements by political leaders, particularly in Romania, 
have worsened the climate for compromise necessary to finally resolve 
the separatist conflict.

Why pursue conflict resolution now?

    Despite the deep-rooted historical, geopolitical, economic and 
other drivers of conflict in Transnistria, there is some evidence that 
a window of opportunity is now opening for conflict resolution. While 
it is no guarantee that the conflict will remain cold, the fact that 
fighting has not resumed and no one has been killed on either side of 
the Dniester since 1992 is encouraging. At a time when violence in 
Nagorno-Karabakh claims dozens of lives a year, and with memories of 
the 2008 war over South Ossetia and Abkhazia still fresh, the relative 
calm around Transnistria appears to offer the best environment for 
productive engagement among conflicting parties in the post-Soviet 
space.
    Although the relative calm, stability and quiet for nearly two 
decades are reasons why the Transnistrian conflict could be solvable, 
these very factors reflect a growing risk which itself calls for urgent 
action. With each passing year, the demographic scales tip more toward 
the new generation of Moldovans and Transnistrians who have grown up 
entirely after the end of the Soviet Union and the de facto separation 
of Moldova. That is not to say that they are immune to the trauma of 
the original conflict. Indeed, some of these young people have 
childhood memories of the violence in 1992, and nearly all know friends 
and relatives who suffered personally. Yet none of them has any 
personal experience living as part of a united society with their 
neighbors on the other side of the river, and therefore little 
intuition for how such a future might look. The danger is simply that 
with passing years, most people in the region will no longer feel a 
strong motivation-or possess the vision needed-to change the status 
quo.
    At this moment, however, the populations on both sides of the 
Dniester and all stakeholders to the conflict resolution process still 
have the capability of resolving the conflict if they choose to do so. 
Thus, the key question is one of political will. Fortunately, there are 
a number of recent positive signals from all sides.
    Russia has long been the de facto guarantor of Transnistria's 
autonomy, through the presence of Russian troops, direct humanitarian 
aid, and economic engagement. However, Russia has consistently 
expressed a desire to resolve the conflict without a formal declaration 
of independence by Transnistria, which is a red line for Moldova. After 
the failure of Russia's 2003 peace initiative (the Kozak plan) the 
Russian leadership pursued these two seemingly contradictory policies 
in parallel.
    Last summer, following a Russian-German summit at Meseberg Castle 
in Germany and a subsequent meeting in Yekaterinburg, Russian President 
Dmitry Medvedev and German Chancellor Angela Merkel issued statements 
suggesting Russia would be prepared to support resolution of the 
longstanding Transnistria conflict in the context of a high-level 
Russia-Europe security dialogue. The joint declaration following the 
October 2010 Deauville summit of France, Germany, and Russia also 
singled out Transnistria as a main focus of potential EU-Russia-US 
security cooperation. Some commentators even described resolving the 
conflict as a ``test case'' for a new Euro-Atlantic security 
partnership.\18\ Most recently, Russia has offered to host a meeting of 
the 5+2 parties in Moscow on June 21, 2011, and conducted separate 
discussions with Ukraine and Transnistria officials, the aim of which 
seems to be to find ways to resume the ``official'' negotiations in the 
5+2 format, stalled since 2006.
---------------------------------------------------------------------------
\18\  Dumitru Minzarari, ``Moldova: the Ties that Don't Bind,'' 
Transitions Online, July 28, 2010, http://www.tol.org/client/article/
21666-moldova-the-ties-that-dont-bind.htm, accessed on June 10, 2011; 
Stefan Wolff, ``The conflict in Transnistria: where things are, why, 
and where they might be going,'' http://www.stefanwolff.com/media/the-
conflict-in-transnistria , accessed on June 10, 2011
---------------------------------------------------------------------------
    Ukrainian President Viktor Yanukovich issued a statement following 
his own meeting with Medvedev in Kyiv in May 2010 identifying 
Transnistria conflict resolution as a top shared priority for the 
region's two large eastern neighbors.\19\ In a February 2011 speech at 
the Carnegie Endowment in Washington, Foreign Minister Kostyantyn 
Gryshchenko underlined this point, warning that this frozen conflict 
could heat up once more without urgent action from all sides.\20\ Thus 
far, Ukraine's commitment has amounted mostly to rhetoric. However, as 
the largest state in the region, a major trading partner of Moldova, 
and sharing a 400 kilometer border with Transnistria, Ukraine is in a 
position to apply meaningful pressure to both sides to move toward a 
resolution to the conflict.
---------------------------------------------------------------------------
\19\  http://www.ng.ru/cis/2010-05-13/1--pridnestr.html
\20\  http://www.carnegie.ru/events/?fa=3167
---------------------------------------------------------------------------
    Romania's role in the conflict is complex and sometimes 
inconsistent. Despite the country's ethnic, cultural and historic links 
to Moldova, it does not participate directly in the 5+2 process, but is 
instead represented through the EU observer delegation (which, 
understandably, has never included Romanians in top positions). 
However, Romanian influence on the conflict is inescapable, and is 
often cited by stakeholders and analysts as a decisive factor.
    On the positive side, Bucharest has formally elevated Transnistrian 
conflict resolution to a top national security priority, and describes 
itself as a staunch supporter of European diplomacy and of Moldova's 
European integration prospects.\21\ Less helpfully, Romania's historic 
close ties with Moldova are often treated as fodder for the political 
campaigns of pan-Romanian nationalists, especially when courting votes 
from the tens of thousands of Moldovans who carry Romanian passports. 
Yet suggestions that Romania and Moldova are more than close neighbors, 
or interpreting Moldova's EU integration as a pathway to reunification 
with Romania, simply stoke the darkest suspicions of Transnistrians and 
their Russian allies that Transnistrian conflict resolution is a mere 
fig leaf for Romanian nationalism.\22\
---------------------------------------------------------------------------
\21\  Statement by H.E. Mr. Traian Basescu, President of Romania, OSCE 
Summit, Astana, 1-2 December, 2010, www.osce.org/mc/74998, accessed on 
June 10, 2011; http://www.bucharestherald.ro/politics/34-politics/
16841-basescu-welcomes-medvedevs-stance-on-transnistria-issue, accessed 
on June 10, 2011.
\22\  See, e.g. ``Moldova may reunite with Romania in next 25 years - 
Basescu,'' RIANovosti, November 30, 2010, http://en.rian.ru/world/
20101130/161565516.html, accessed on June 10, 2011.
---------------------------------------------------------------------------
    On the Moldovan side, the major political development of the past 
two years is, of course, the rise of the Alliance for European 
Integration (AEI). Following improved results in two national elections 
in 2009 and 2010, the AEI now leads a coalition government with an 
absolute majority in the parliament of 59 seats, to the Communists' 42 
seats, a sufficient margin of control to pass legislation but not to 
elect a president (that would require a supermajority of 61 votes).\23\ 
Under AEI leadership, Moldova has made European integration its top 
priority, and emphasizes its commitment to implement the reforms 
necessary to conclude an association agreement, including enhanced 
trade and visa-free travel. The AEI links its position on European 
integration to Transnistria conflict resolution by arguing that a clear 
European perspective will help make right-bank Moldova more attractive 
to the separatists.
---------------------------------------------------------------------------
\23\  ``General Information on the 2010 Early Parliamentary 
Elections,'' e-Democracy.md, http://www.e-democracy.md/en/elections/
parliamentary/2010/info/ ; See also OSCE-ODIHR report at http://
www.osce.org/odihr/elections/73833.
---------------------------------------------------------------------------
    The new Moldovan government has not abandoned any of Moldova's past 
insistence on preservation of sovereignty and territorial integrity, 
but it is clearly prepared to make possible some of the conditions that 
would be necessary for conflict resolution, including a special 
autonomous status for the Transnistria region, preservation of left-
bank residents' property rights and social welfare benefits, and other 
political and constitutional guarantees. On the other hand, there is a 
risk that if more than two years of openness to reconciliation by 
Chisinau does not soon result in the commencement of formal 5+2 
negotiations and agreement on a reunification process, the goal of 
conflict resolution will fall by the wayside. In this respect, the EU 
has a critical role to play, both in pushing forward the conflict 
resolution process, and ensuring that right-bank Moldova's progress in 
association talks does not leave the left bank behind.
    In Transnistria itself, conditions have evolved only glacially 
since 1992. However, there have been some positive signs, and 
significant political change could occur in the near future. In May, 
Tiraspol released Moldovan journalist Ernest Vardanean, who had been 
imprisoned for espionage, a conviction challenged by Westerners as 
false and politically motivated.\24\ The leadership has also indicated 
a willingness to resume formal negotiations following meetings with 
OSCE and Russian officials, although subsequent statements from 
Tiraspol often backtrack and suggest negotiations would depend on 
obviously unacceptable preconditions such as recognition of 
Transnistrian independence. The current leader, Igor Smirnov, is 
approaching 70, and despite Russian urging has not successfully 
anointed a successor who could take his place in the presidential 
election scheduled for December 2011.
---------------------------------------------------------------------------
\24\  ``Transdniestrian Leader Pardons Moldovan Journalist,'' RFE/RL, 
May 5, 2011 http://www.rferl.org/content/
transdniester_leader_pardons_moldovan_journalist/24092543.html
---------------------------------------------------------------------------
    While no new leader is likely to fully abandon Transnistria's 
ambitions of independence, pressure from Russia and Ukraine could 
create an opening for an agreement in the context of a security 
dialogue with Europe and the United States that served all sides' 
broader interests. In this respect, Russia holds most of the crucial 
cards, as illustrated by Transnistrian furor in late 2010 over the 
threatened suspension of Russian aid payments, which, together with 
Russian gas, are the lifeline for the Tiraspol authorities' budget. As 
long as Russia remains prepared to accept relations with Transnistria 
that run through Chisinau rather than Tiraspol, it should be possible 
to adjust the composition of, and incentives for, the Transnistrian 
leadership to facilitate productive talks. After all, greater 
prosperity for the region through enhanced ties with Europe will 
undoubtedly benefit people and businesses on both sides of the river.

What can be done by the international community?

    Well-intended official statements on the Transnistrian conflict 
usually involve repetition of the mantra that the OSCE 5+2 process is 
the essential format for conflict resolution, and that it should be 
supported and strengthened by all parties. This statement is of course 
true: the 5+2 process engages each of the critical stakeholders to the 
conflict and without it there is little hope of conflict resolution. 
However, by itself this reasoning offers little in the way of content 
that can shape negotiations and move the parties toward eventual 
resolution of the conflict. To that end, let us consider what the 
international community and each of the relevant stakeholders could 
contribute to improving the atmosphere while building a foundation for 
conflict resolution.
    As has been discussed previously, the Transnistrian conflict cannot 
be understood independently from the broader context of relations among 
states in the Euro-Atlantic region, since it is a consequence of past 
and present tensions in these relations. Thus, an essential first step 
in the conflict resolution process is to recognize the existence of a 
Euro-Atlantic security space, in which states and other actors are 
subject to one another's decisions and actions-in other words, to 
recognize that security is unavoidably a mutual good in the greater 
world region of which Transnistria is a part. With that understanding, 
it is possible to acknowledge the legitimate security concerns of each 
of the states in the region, including the parties to the Transnistria 
conflict. By recognizing, for instance, Russia's legitimate security 
interests in the former Soviet space, and in the region around Moldova 
in particular, we can help to create an atmosphere of trust and 
transparency in which Russia is likely to be more prepared to engage 
seriously in the conflict resolution process.
    It would undoubtedly further improve the atmosphere for conflict 
resolution to go one step beyond recognizing the existence of a Euro-
Atlantic security space, by seeking states' acknowledgement and active 
support of an inclusive security community in this region. Far short of 
calling for a new organization or alliance, recognition of a security 
community is simply the effort to manage issues of shared security 
concern within the Euro-Atlantic space that do not easily fit into the 
exclusive ambit of individual states or supranational groups.
    The agenda for such a security community would entail, first, 
defining the traditional and novel threats to the security of states in 
the community, whether internally or externally generated. Second, 
states would identify compatible--though not necessarily shared--values 
on which to base cooperation in responding to those threats. Finally, 
states should cooperate through appropriate channels to manage tension 
and conflict, such as by establishing an effective community-wide 
energy security dialogue, or by defining acceptable standards for 
states pursuing association with supra-national groupings like the EU, 
the CSTO, or NATO, that do not fundamentally threaten other states' 
security interests.
    One obvious platform to enable community-wide approaches to 
conflict management and resolution is the OSCE, in which all 56 states 
in the Euro-Atlantic region participate, from Vancouver to Vladivostok. 
Under the framework of the OSCE's ``second dimension,'' participating 
states have identified economic development as a common security 
interest, yet this dimension has been only minimally exploited by 
participating states in the context of addressing protracted conflicts 
like Transnistria. In light of the importance of asset ownership and 
revenue flows to stakeholders in the Transnistria conflict, it could be 
helpful to engage the OSCE's second dimension authority to create a 
neutral, international resource center on economic development and 
conflict resolution. Such a center could conduct audits of asset 
ownership and monitor trade and financial flows related to conflict 
regions, and make the resulting data publicly available on the 
internet, helping at least to clarify what and whose interests are at 
stake in a given conflict and thus enabling solutions which take those 
interests into account.
    A second novel contribution by the OSCE could be to help address 
the linked issues of protracted conflicts and historic reconciliation, 
which fit comfortably within the purview of the OSCE's ``first 
dimension,'' on politico-military security. As described above, new 
generations of Moldovans and Transnistrians may lack personal memories 
of the 1992 conflict, but their perceptions of one another and of the 
states and societies around them derive from deeply rooted cultural and 
historical narratives. Even if the modern geopolitical and economic 
dimensions of the Transnistrian conflict could be solved, there would 
still be the potential for conflict between people on opposite sides of 
the Dniester, as long as they perceive one another as heirs to a 
tradition of conflict between rival empires going back a century or 
more, and punctuated by wars, ethnic cleansing and occupation.
    Rather than seeking merely to move on and forget about these 
traumas, it will be far more conducive to enduring conflict resolution 
for the parties to engage in bilateral or multilateral reconciliation, 
perhaps on the model of the recent Russian-Polish Group for Difficult 
Matters. The OSCE could facilitate such efforts by establishing an 
electronic archive of documents on historic conflicts and related 
issues, open to contributions from all parties, and with a standing 
group of international experts available at the request of states to 
advise on reconciliation methodologies. In order for parties like those 
in Transnistria to overcome the deep historical dimensions of their 
conflict, they must achieve not only truth, but satisfying mutual 
understanding, and some measure of real justice where it is not too 
late to be done. On that basis, the parties can agree to move forward 
on a new agenda that will define their shared future.

What can be done by the 5+2 parties?

    At this point, Russia holds a great many of the critical cards in 
Transnistria. Moscow has significant influence on the authorities in 
Tiraspol, through aid payments, energy supplies, and the presence of 
Russian troops. The Russian government maintains an official policy in 
favor of Moldovan reunification with respect for Transnistrian rights, 
and has been prepared to sponsor conflict resolution in the 5+2 
framework. Now it is time for Russia to overcome its internal obstacles 
to conflict resolution by reconciling the interests of the state, which 
are largely productive, with those of powerful individuals who benefit 
financially from the continuation of the status quo. For Russia, this 
is fundamentally a choice between a model of development based on 
growing the pie and ensuring free and fair competition versus a future 
defined exclusively by those who hold power today. It is therefore not 
unlike the choice Russians face about their own future development, and 
may depend greatly on the outcome of Russia's 2012 presidential 
transition.
    In the meantime, Russia and Ukraine can play a helpful role by 
continuing to press Transnistria to participate in dialogue in the 5+2 
format, so that the parties can maintain channels for resolving minor 
technical issues and developing confidence building measures. It is 
also important for both Moscow and Kyiv to maintain accurate records on 
residents of Transnistria who have acquired Russian or Ukrainian 
citizenship, and to refrain from further undermining Moldovan 
sovereignty in the region by granting passports to new applicants who 
intend to remain in Transnistria. Lastly, both states should use their 
considerable trade and economic relations with both Moldova and 
Transnistria as leverage to oppose provocations and promote dialogue, 
and to support economic development that will benefit the region as a 
whole.
    The EU, although formally an observer to the 5+2 process, is 
potentially the party most able to transform the situation by 
dramatically enhancing the appeal of Moldovan citizenship for residents 
on both sides of the Dniester. Association with the EU, including free 
trade and travel, would be an enormous carrot for Moldovans, but must 
be leveraged to promote both the appropriate domestic reforms and to 
require engagement of Transnistrians in the process, so that the left 
bank is not left behind. The worst case scenario might actually be if 
Moldova achieves its European integration goals without making real 
progress in the conflict resolution process, as this would sap Chisinau 
of important incentives to make necessary but difficult compromises.
    The EU must also carefully balance between its collective position 
on the conflict and its relations with Russia. Romania, which has a 
more direct interest in the conflict than any other EU state, must be 
encouraged to police its own rhetoric to ensure that it does not 
undermine the credibility of the EU as a whole. At the same time, it is 
appropriate and understandable for Brussels to resist Russian efforts 
to exploit differences of opinion and approach among EU member states. 
The EU can neither ignore Russia's interests in the region nor strike a 
deal with Moscow that neglects the interests of Chisinau or Bucharest.
    Above all, the EU has unique comparative advantages which enable it 
to foster institutional reform, capacity building and civil society 
engagement on both sides of the Dniester. To Moldova, the EU should 
offer a clear path to European association under the rubric of its 
``more for more'' policy, including clear and neutral metrics for 
success, together with tough love, demanding real action and hard 
evidence of reform, not just promises. For both Moldova and 
Transnistria, the EU should expand its current investment in civil 
society programs, including both those intended to strengthen civil 
society groups and those promoting relationship- and trust-building 
dialogue among the parties. Finally, the EU can contribute personnel 
with skills and expertise to help and train local officials, as it has 
done already for the EUBAM border-monitoring program, but which might 
be expanded to include justice sector capacity building and efforts to 
combat corruption in state contracting.
    The United States is also an observer to the 5+2 process with the 
potential to make a more significant contribution to conflict 
resolution. First and foremost, the US should take steps to help 
improve the appeal of Moldovan citizenship, by finally repealing 
Jackson-Vanik for Moldova, signing a bilateral trade and investment 
agreement with Chisinau, and making Moldova a candidate for the visa 
waiver program. Together with even modest investments in educational 
and cultural exchanges with Moldova, these steps would build on the 
positive image the US already has there while making a concrete 
contribution to Moldova's growth and integration with the global 
economy.
    US engagement should not leave Transnistria behind, either. Even 
though Washington does not and should not recognize the authorities in 
Tiraspol, US investments in the region's small and medium sized 
enterprises could help support growth, enhance ordinary Transnistrians' 
ties with the West, and foster more transparent business practices in 
the region. Like the EU, the US should be prepared to lend experienced 
personnel to assist with border management and law enforcement, 
especially in the acute struggle against human trafficking from and 
through this region. In its democracy promotion activities throughout 
the post-Soviet space, the US should not neglect Transnistria, where 
enhanced citizen participation in local government would actually 
facilitate reintegration with Moldova, which has markedly improved its 
own democratic practices in recent years.
    Last but hardly least, Moldovans and Transnistrians themselves must 
be prepared not only to demand help from outside powers, but to commit 
to policies and rhetoric that improve the atmosphere for conflict 
resolution rather than undermining it. Above all, this means that both 
sides must stop delivering contradictory messages to outsiders and to 
their own populations. It is incumbent upon Moldova's leadership to 
prepare Moldovan citizens for a future in which Transnistria enjoys 
unique rights and privileges within a mutually agreed power-sharing 
arrangement. Moldovans cannot unilaterally write laws dictating the 
terms of Transnistria's reintegration and demand that these constitute 
the framework for negotiations within the 5+2 process.
    The reality is that Transnistria has a special status, and Moldova 
is in no position to impose terms on the left bank. But at the same 
time, the Transnistria authorities cannot expect any serious 
concessions from Moldova if they insist on recognition of their formal 
independence and equal status with Moldova as a precondition for 
negotiations. Both parties' international partners should remind them 
that the cost of pursuing unrealistic, maximalist positions and failing 
to lay the foundation for compromise in their domestic political 
discourse is likely to be reduced potential for populations on both 
sides to achieve their long term goals.
Conclusion

    Although the causes of the Transnistria conflict are complex, and 
linked to broader international issues that cannot easily be resolved 
in the short term, there is good reason to believe that we now face a 
new window of opportunity to bring conflict resolution back into focus 
for each of the relevant parties and the international community as a 
whole. Russia and Ukraine have expressed a renewed serious interest in 
solving the conflict, while Europe and the United States have the 
ability to help Moldova grow and develop in ways that will make it a 
more appealing partner for Transnistrians. Recent but sustained 
political change in Moldova and the possibility of an imminent change 
of leadership in Transnistria could also combine to enable a renewed 
drive to resolve the conflict within the OSCE 5+2 framework.
    Moldova is certainly a positive example in a region with more than 
its share of hard cases. The new government has made a concerted effort 
to deepen ties with Europe, while maintaining historically close and 
cordial relations with Moscow. Moreover, Moldovans are still among the 
most moderate and flexible people in the region in their attitudes 
toward the complex interplay among language, religion, and nationality. 
Moldovans living on both banks of the Dniester river deserve a chance 
to put these values into practice in a reunited society and state which 
will open new opportunities, end painful separation, and deliver far 
greater prosperity for the region as a whole.


  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  http://www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
